<html>
<title> - FOREST & RANGELAND HEALTH IN NEVADA'S GREAT BASIN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
           FOREST & RANGELAND HEALTH IN NEVADA'S GREAT BASIN

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                Monday, October 27, 2003, in Ely, Nevada

                               __________

                           Serial No. 108-72

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

90-111              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, October 27, 2003.........................     1

Statement of Members:
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Abbey, Robert V., Nevada State Director, Bureau of Land 
      Management, U.S. Department of the Interior................    10
        Prepared statement of....................................    12
    Hiatt, John, Ph.D., Chairman, Board of Trustees, Eastern 
      Nevada Landscape Coalition.................................    27
        Prepared statement of....................................    29
    Johnson, Larry J., Board Member, Eastern Nevada Landscape 
      Coalition, and Director, Nevada Bighorns Unlimited.........    37
        Prepared statement of....................................    38
    Perryman, Barry L., Ph.D., Assistant Professor, Rangeland 
      Ecology, Department of Animal Biotechnology, University of 
      Nevada-Reno................................................    32
        Prepared statement of....................................    33
    Robinson, Steve, State Forester, Nevada Division of Forestry, 
      representing Governor Kenny Guinn..........................    23
        Prepared statement of....................................    24
    Strickland, Rose, Chairman, Public Land Committee, Toiyabe 
      Chapter of the Sierra Club, Nevada and Eastern Sierra......    39
        Prepared statement of....................................    41
    Troyer, Jack G., Regional Forester, Intermountain Region, 
      Forest Service, U.S. Department of Agriculture.............     3
        Prepared statement of....................................     7


  OVERSIGHT FIELD HEARING ON FOREST AND RANGELAND HEALTH IN NEVADA'S 
                              GREAT BASIN

                              ----------                              


                        Monday, October 27, 2003

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                              Ely, Nevada

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:22 a.m., at 
the County Commission Meeting Chamber, 953 Campson Street, Ely, 
Nevada, Hon. James Gibbons presiding.

  STATEMENT OF THE HONORABLE JIM GIBBONS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Gibbons. The Forests and Forest Health Subcommittee 
will come to order.
    First I want to explain that the Chairman of the full 
Committee--I happen to be the Vice Chairman--but the Chairman 
of the full Committee was unable to make it into Ely today due 
to scheduling problems as a result of the fires in California. 
So perhaps this hearing is more timely in terms of the impact 
that it's having on people and people's lives today than most 
of us realize. But the Chairman, who was going to be here from 
California, is now trying to make alternative arrangements to 
get back to work tomorrow, as we all are, with the unsettling 
scheduling problems that the airlines are facing now in and out 
of California as a result of the fires.
    First of all, I want to thank all of you for coming here 
today to this hearing. This is an important Congressional 
oversight hearing, and simply because there's only one person 
here, as the Vice Chairman of the Committee, doesn't mean any 
less importance of the information that is going to be 
presented. It will be brought before the full Committee in 
terms of the minutes of this hearing. It will be available for 
all members to read and hear.
    So it will be put forward as part of the full Committee's 
hearing as well.
    This is a hearing to discuss the forest and the rangeland 
health in Nevada's Great Basin area. The Resources Committee, 
if I can add this in, has made I think great strides in forest 
health policy, especially with the passage of the Healthy 
Forest Initiative that was passed through the House of 
Representatives. I think we're all hopeful that we can get the 
Healthy Forest Initiative passed through the Senate and signed 
into law, and that needs to happen sooner rather than later.
    Because I think like all of you, when you read the morning 
newspaper, you are absolutely devastated as you watch thousands 
of acres burn needlessly because we cannot be proactive in our 
forest management policy or in our wildlands management policy 
for that matter.
    I think we're all stymied by a great deal of opposition 
from some of the more extreme and radical environmental groups 
that really object to any attempt to clear out overgrowth, of 
dead, dying underbrush. We're always frustrated by many of the 
attempts to stop these operations, and as a result, our forest 
and brush lands tend to be at greater risk each and every year 
that we fail to take adequate action. I think you are going to 
hear from some of our witnesses about this kind of opportunity.
    I think the results are clear: Our forests remain at risk 
for devastating wildfires. These wildfires threaten habitat, 
they threaten human life, they threaten wildlife, they threaten 
property.
    And there's no doubt about it, you only have to look at 
what happened over the weekend in California. Today there are 
700 homes that have been burned, 13 people have lost their 
lives. That's uncounted dollars in terms of just pure property 
loss, but ultimately an unbearable and devastating loss in 
terms of human life that we just have a very difficult time 
accounting for.
    So I hope this hearing will help us continue to advance and 
promote common-sense policies with respect to Federal land 
management.
    And as for the issue before us today, it is my 
understanding that over the last century, due to what I see as 
inadequate fire suppression activity and the lack of thinning, 
the pinyon and juniper trees having encroached over six million 
acres of historic sagebrush lands in Nevada. This encroachment 
has dramatically altered the landscape by extensively reducing 
the habitat of the sage grouse. As we know, that is in a 
greater and greater threatened status these days. And it's 
diminished the available forage for other native species, the 
deer, the elk and other animals that use the forage in these 
areas.
    Most importantly, the overgrowth of pinyon and juniper 
trees have put far too many families and rural communities like 
Ely here in Nevada in dire risk of being destroyed by wildfire. 
The pinyon and juniper trees have completely surrounded this 
small town, and having personally witnessed, as many of us 
have, the intensity of the pinyon and juniper fire, I can tell 
you that they burn exceedingly hot.
    In the event of a fire, I think this overgrowth could be 
devastating to life and property right here in Ely. This issue 
is of utmost concern to me as it is to those people that are 
living in this area, and in fact, all the people that I 
represent in Nevada. So I'm anxious to hear the opinions and 
the ideas of the BLM, the Forest Service, State 
representatives, and scientists who are going to be before us 
today presenting information for the Committee.
    Hopefully this information that they will provide today 
will help us to develop a better lands management policy to 
mitigate this dangerous wildlife or wildfire threat. So I look 
forward to hearing from our witnesses. I want to thank them for 
their participation at today's oversight hearing.
    [The prepared statement of Mr. Gibbons follows:]

 Statement of The Honorable Jim Gibbons, a Representative in Congress 
                        from the State of Nevada

    First, I thank our witnesses for traveling to Ely, Nevada, to 
testify at this important Congressional oversight hearing on ``Forest 
and Rangeland Health in Nevada's Great Basin.''
    The House of Representatives has made great strides in forest 
health policy with the passage of the Healthy Forest Initiative.
    I am hopeful this critical forest protection bill will be passed by 
the Senate and signed into law--sooner rather than later.
    It devastates me, every year, to helplessly watch thousands of 
acres of land burn needlessly, because we cannot be proactive in our 
forest management policies.
    Stymied by the opposition of radical environmental groups, any 
attempt to clear out overgrowth and dead underbrush is stopped dead in 
its tracks.
    The result: Our forests remain at risk for devastating wildfires--
threatening habitats, wildlife, property, and, ultimately, human lives.
    I hope this hearing can help us continue to promote commonsense 
policies with respect to federal land management.
    As for the issue before us today, it is my understanding that over 
the last century, due to fire suppression activities and a lack of 
thinning, pinion and juniper trees have encroached on over 6 million 
acres of historic sagebrush lands in Nevada.
    This encroachment has altered the landscape dramatically by 
reducing the habitat for the sage grouse and diminishing the available 
forage for elk, deer, and cattle.
    Most importantly, the overgrowth of pinion and juniper trees have 
put too many rural communities in Nevada in dire risk of being 
destroyed by wildfire.
    The pinion and juniper trees have completely surrounded our small, 
rural towns.
    In the event of a fire, this overgrowth could be devastating to 
life and property.
    This issue is of utmost concern to me and my constituents, and I am 
anxious to hear the opinions and ideas of the BLM, the Forest Service, 
State Representatives, and scientists we have here today.
    Hopefully, the information our witnesses provide today will help us 
to develop a lands management policy to help mitigate this dangerous 
wildfire threat
    I look forward to hearing from our witnesses and thank them for 
their participation at today's oversight hearing.
                                 ______
                                 
    Mr. Gibbons. With that, let me introduce the first panel, 
if they wouldn't mind coming forward. Our first panel is going 
to be: Mr. Jack Troyer, he is the Regional Forester, 
Intermountain Region for the United States Forest Service; Mr. 
Robert Abbey, who is the Nevada State Director of the Bureau of 
Land Management, U.S. Department of Interior.
    Gentlemen, welcome. The floor is yours. We look forward to 
your testimony. Jack, I don't know who is going to start, 
either you or Bob. Flip a coin.
    Mr. Abbey. Go ahead, Jack.
    Mr. Gibbons. The loser gets to go first.

  STATEMENT OF JACK TROYER, REGIONAL FORESTER, INTERMOUNTAIN 
    REGION, U.S. FOREST SERVICE, ACCOMPANIED BY BOB VAUGHT, 
SUPERVISOR, HUMBOLDT-TOIYABE NATIONAL FOREST, PAT IRWIN, LOCAL 
DISTRICT MANAGER, ELY, NEVADA, AND ROBIN TAUSCH, ROCKY MOUNTAIN 
                FOREST RANGE EXPERIMENT STATION

    Mr. Troyer. Congressman Gibbons, thank you.
    Mr. Gibbons. Is your mike on? I think you have to turn the 
switch on the top. Just to make sure everybody can hear you.
    Mr. Troyer. Sound better?
    Mr. Gibbons. I don't know. I can hear you. But can the 
people in the back hear what he is saying?
    Mr. Troyer. Congressman Gibbons, I truly appreciate the 
opportunity to get to come here today and testify before you. 
We have a lot of passion about these issues, and you are so 
right, it is of extreme importance. So let me again express my 
appreciation to be here.
    My name is Jack Troyer. I'm the Regional Forester for the 
Intermountain Region of the Forest Service.
    I'm also accompanied today by Bob Vaught, the Forest 
Supervisor of the Humboldt-Toiyabe National Forest; and our 
local district manager, Pat Irwin here in Ely; as well as Dr. 
Robin Tausch from the Rocky Mountain Forest Range Experiment 
Station, who spent I think a lifetime doing research on pinyon-
juniper woodlands and is truly an expert. So he can add later 
on in a discussion if you so desire.
    At the outset, I want to let you know that what's happening 
in Washington, D.C., this week is, of course, of tremendous 
interest to us. The President's Healthy Forest Initiative and 
H.R. 1904, the Healthy Forests Restoration Act, will help us 
improve the health and vitality and diversity of our National 
Forest and grasslands. A little add to my testimony here, 
absolutely and passionately that is important, that's an 
important initiative that is going on. I can't express that 
strongly enough.
    The Intermountain Region of the Forest Service encompasses 
32 million acres of National Forest and grasslands in all the 
parts of six States: western Wyoming, southern Idaho, Utah, 
Nevada, eastern California, and a little bit of Colorado. Our 
mission, of course, is a multiple use mission, manage these 
lands for multiple uses while we sustain their health and 
productivity and diversity. Here in Nevada, the Forest Service 
manages over five million acres of rangelands for a multitude 
of purposes, including livestock grazing, mining, recreation, 
watershed protection and, of course, the harvest of forest 
products.
    Earlier this year Chief of the Forest Service, Dale 
Bosworth, described four threats that are seriously impacting 
our National Forests and grasslands. And that's really going to 
be the focus of my testimony today. These four threats are: 
Fire and fuel buildup that you so eloquently talked about to 
begin this hearing, invasive species, the loss of open space 
that is occurring, particularly throughout the West, and 
unmanaged recreation.
    So I'd like to really talk for a minute about each one of 
these and why we think these are so important and what it will 
take as we work in partnership with local, State and other 
Federal agencies to do something about these. The first threat 
I want to talk about of course is fire and fuels. What's 
happening in California now, certainly as you say, brings focus 
to that.
    Many here in Nevada will remember what happened in 1999 and 
2000 with these major fires.
    The underlying issue, of course, is that so many of our 
forests have become overgrown and unhealthy throughout Nevada 
and throughout our region. Additionally, Nevada has experienced 
five straight years now of below average precipitation. In this 
portion of the Great Basin we have a specific problem of pinyon 
and juniper trees encroaching upon rangelands, just as you were 
saying.
    Dr. Tausch has done extensive research into the historical 
distribution and density of pinyon and juniper species 
throughout the Intermountain West, and basically we have three 
to four times more pinyon and juniper woodlands than were here 
a hundred to 150 years ago. Dr. Tausch believes that prior to 
European settlement, these woodland species primarily confined 
themselves to rocky ridges or surfaces where sparse vegetation 
limited fire.
    Now they are occupying more productive sites with deeper 
well-drained soils. Replacement of the original sagebrush 
communities of pinyon and juniper species is largely attributed 
to the reduced occurrence of the fire. So now these dense tree-
canopied woodlands are so susceptible to these intense crown 
fires that you were talking about that they lead to dominance 
by exotic, undesirable species, certainly subject to 
cheatgrass.
    So what can we do?
    Absolutely it will take active management and lots of work 
to treat these lands that need help. If the encroachment hasn't 
gone too far, and there is still sagebrush and grass there, we 
can use prescribed fire. And that means when the fire is done, 
there is nothing left to restore native species there. But if 
on so many acres, as you talked about earlier, it has gone too 
far, we have got to go straight to mechanical treatment before 
we can do the restoration work that is necessary.
    The Humboldt-Toiyabe Forest is working to reduce buildup of 
hazardous fuels on the forest. Many acres are going to be 
treated in the coming years, and much of this work is going to 
be centered in wildland/urban interfaces throughout Nevada, 
such as Holbrook Junction, Jacks Valley, Mount Rose, Shantytown 
and elsewhere. Here in Ely, the District Ranger Pat Irwin has 
successfully used the new categorical exclusion regulations 
already, for example, to quickly allow for the treatment of 100 
acres of National Forest along the power lines. So we're 
getting some benefit there.
    The healthy forest restoration work accomplished throughout 
the State is done cooperatively with the Nevada Division of 
Forestry, the Bureau of Land Management, who has done, in my 
opinion, an outstanding job of leading some tremendous, large-
scale, planning efforts and work here in Nevada, and local 
governments. So this work has just got to cross boundaries. 
That is going to be key.
    To assist the State of Nevada with hazardous fuel reduction 
work, the Forest Service has awarded grants totaling $3.7 
million over the last 3 years to NDF to complete work on non-
Federal lands throughout the State, and they do a great job. We 
appreciate it. They are very, very good at it, and I'm glad 
that Steve Robinson is here today.
    The second threat to the National Forest is the spread of 
unwanted invasives, and I think we all know that is a national 
problem. But here in the Intermountain West, I think the most 
troubling invasives that we're dealing with are cheatgrass, 
knapweeds, yellow starthistle, salt cedar, leafy spurge, purple 
loosestrife. The list goes on, and the damage they do is just 
unbelievable. When leafy spurge takes over an area, really the 
value for forage and wildlife is about gone.
    What can we do? Prevention and control. The good news here 
in Nevada on the National Forest is this has not progressed as 
far as it has in some other forests and States in our region. 
So the prevention control work has a much better chance of 
somewhat nipping this in the bud, if I could say it in that 
way.
    We have again used State and private forestry grants and 
contributed $268,000 to support these cooperative weed 
management areas. Weeds like so many things don't understand 
when they cross State and private BLM lands. So we have to work 
together to treat this problem, and I cannot overemphasize how 
important this is.
    The third threat is really the loss of open space. It 
sounds like, gosh, maybe also but not here in Nevada. But even 
here in Nevada, critical riparian farmlands, as we remember how 
the West was settled, owning private land and working ranches, 
we lose a working ranch and it converts to a residential 
subdivision, a lot of other problems ensue at that time. We 
might have a new wildland interface, or we might even lose 
access to the National Forest or public lands that previously 
existed.
    So I think this is a more serious problem than we had 
thought.
    What can we do? The Forest Service says there is a lot of 
things we can do. We have a lot of programs that can contribute 
to this solution.
    Forest Legacy is a program, for example, that can lead to 
conservation easements on private lands administered through 
the States and keep working ranches working. I believe we're 
going to be soon transferring half a million dollars to Nevada, 
and I think the best success story so far close by are the 
Forest Legacy program in Utah that we can talk about later.
    We're committed to working with ranches individually, not a 
one size fits all to grazing issues around the State, with the 
Natural Resource Conservation Service to utilize their various 
programs, but the real solution to this problem in the long run 
is to keep working ranches working.
    We have a lot fewer range conservationists on the ground 
than we used to, and that is part of our problem. It is harder 
to work cooperatively with ranchers when we don't have enough 
range con's, it's not as good for relationships, and we're 
working hard to turn that around. We actually have about half 
as many range con's on the ground as we did 15 years ago. We 
have made a little progress on that the last couple years.
    I think I'd like to summarize this by saying grazing on 
National Forest and grasslands is going to be part of the 
solution. It's not part of this problem.
    The forest threat that I would like to quickly close on is 
the threat of unmanaged outdoor recreation. In my years with 
the Forest Service, I have seen the number of people recreating 
on National Forest lands, it has just exploded. We had 22 
million visitor days in our region last year.
    A lot of the traditional activities of forests, such as 
camping, fishing and hiking still occur, but lots more new ones 
are exploding in use, such as four-wheeling, mountain biking, 
snowboarding. I have just heard about geo-caching, which is 
sort of an organized treasure hunt, that I wasn't very familiar 
with until recently.
    But the number and the challenges continue to grow. The 
challenge for us is to accommodate these needs while reducing 
some of the damage that we can get to sensitive areas, riparian 
areas, and especially working to prevent conflict amongst the 
user groups and learn how we can share.
    One example I'd like to close with is Peavine Mountain 
located in Reno's backyard is a good example, and the Forest 
Service and Washoe County and the city of Reno have 
cooperatively embarked upon a course of action to deal with 
these issues.
    Here in Ely, the Duck Creek Travel Plan started with local 
citizens asking the White Pine Board of County Commissioners to 
address the problem of OHV travel in the Duck Creek Basin. The 
Forest Service and the BLM, in cooperation with the county, are 
completing an environmental analysis on recommendations made by 
the county's Coordinated Resource Management Group which 
addresses this OHV use and sometimes misuse.
    But I want the American people to recreate and enjoy their 
National Forests and learn to take pride in how to take care of 
them as well as to enjoy them.
    In closing, let me just say that we will continue to 
address these four threats. These four threats are important. 
It will take the Forest Service's best efforts to make progress 
on each one of these working with many other people. A lot of 
recreational restoration work and active management to do.
    That concludes my remarks. I will stop until further 
directed, and again, thank you very much for this opportunity.
    Mr. Gibbons. Thank you very much, Mr. Troyer. We appreciate 
your comments. They are very helpful to us.
    [The prepared statement of Mr. Troyer follows:]

 Statement of Jack G. Troyer, Regional Forester, Intermountain Region, 
             Forest Service, U.S. Department of Agriculture

    Mr. Chairman and Members of the Committee:
    Thank you for the opportunity to be with you today to discuss the 
health of the forests and rangelands in Nevada's Great Basin. My name 
is Jack Troyer. I am the Regional Forester for the Intermountain Region 
of the Forest Service. With me today is Bob Vaught, Forest Supervisor 
of the Humboldt-Toiyabe National Forest, Pat Irwin, Ely District 
Ranger, and Dr. Robin Tausch, Research Scientist and Project Leader for 
the Rocky Mountain Research Station.
    At the outset, Mr. Chairman, I want to let you know that actions 
taking place back in Washington, D.C., are of great interest to us here 
in the Intermountain Region. The President's Healthy Forests Initiative 
and H.R. 1904, the Healthy Forests Restoration Act of 2003, will help 
us to improve the health and vitality of the national forests and 
grasslands.
    The Intermountain Region encompasses 32 million acres of National 
Forests and Grasslands in parts of six states: western Wyoming, 
southern Idaho, Utah, Nevada, and portions of California and Colorado. 
Our mission is to manage these lands for multiple-use while sustaining 
health, diversity, and productivity. Here in Nevada, the Forest Service 
manages over five million acres of forest and rangelands for a 
multitude of purposes, including livestock grazing, mining, harvesting 
of forest products, recreation, and watershed protection.
    Earlier this year, Chief Bosworth described four threats that 
confront the national forests and grasslands: fire and fuel build-up, 
invasive species, the loss of open spaces, and unmanaged recreation. I 
will briefly explain why each of these issues is a threat to National 
Forests in this Region. I will also highlight some of the efforts the 
Forest Service, in partnership with the local, state and other federal 
agencies, is taking to address the threats.

Fire and Fuels
    One threat to National Forests is fire and fuels. Many here will 
remember the fire seasons of 1999 and 2000 when Nevada experienced many 
large wildland fires.
    The underlying issue is that so many of our forests have become 
overgrown and unhealthy. Additionally, Nevada has experienced five 
straight years of well below average precipitation. In this portion of 
the Great Basin, we have the specific problem of pinyon and juniper 
trees encroaching upon rangelands. Dr. Tausch has done extensive 
research into historical distribution and density of pinyon and juniper 
species in the Intermountain West. Today, we have two to three times 
more pinyon/juniper woodlands than 100 years ago and the potential for 
additional encroachment by pinyon/juniper is high. Dr. Tausch believes 
that, prior to the European settlement; woodland species were primarily 
confined to rocky ridges or surfaces where sparse vegetation limited 
fire. Pinyon/juniper woodlands now occupy more productive sites with 
deeper well-drained soils. Replacement of the original sagebrush 
communities by pinyon and juniper species is largely attributed to the 
reduced occurrence of fire. These dense tree-canopied woodlands are now 
susceptible to intense crown fires, which can lead to the dominance of 
exotic, undesirable species such as cheatgrass.
    So what can we do? It will take active management and lots of work 
to treat lands that currently need help. We can successfully treat by 
various methods particularly fire, the early to middle successional 
stages of pinyon/juniper encroachment, when woodlands contain 
understories of native shrubs and forbs. In addition, we need to 
recognize that burned areas may present land managers with the 
opportunity to restore forests and rangelands to more natural fire 
regimes that can complement or reduce fuels reduction management 
efforts.
    The Humboldt-Toiyabe National Forest is working to reduce the 
build-up of hazardous fuels on National Forest System lands. Many acres 
will be treated in the coming years with much of the work centered in 
the wildland/urban interface at locations such as Holbrook Junction, 
Jacks Valley, Mt. Rose, Shantytown and elsewhere. In Ely, the District 
Ranger has successfully used the new categorical exclusion procedures 
to quickly allow for the treatment of 100 acres of National Forest 
along a high voltage power line.
    The healthy forest restoration work that is accomplished in Nevada 
is done cooperatively with Nevada Division of Forestry (NDF), the 
Bureau of Land Management (BLM), and local governments--efforts that 
cross administrative boundaries for the purpose of improving the health 
of the forest and rangelands. To assist the State of Nevada with 
hazardous fuel reduction work, the Forest Service awarded, in grants, 
3.7 million dollars over the last three years to NDF to complete work 
on non-federal lands throughout the state.

Invasive Species
    The second threat to National Forests and Grasslands is the spread 
of unwanted invasive species. We used to focus just on noxious weeds. 
Now we know that the issue is far broader. Invasive species also 
include animals and even disease-causing pathogens, such as West Nile 
virus. Invasive species are species that evolved in one place and wound 
up in another, where the ecological controls they evolved with are 
missing. They take advantage of their new surroundings to crowd out or 
kill off native species. In the process, they might alter key 
ecological processes, such as hydrology or fire return intervals.
    In the Intermountain West, some of the most troubling invasive 
plants are cheatgrass, knapweed, yellow star thistle, salt cedar, leafy 
spurge, and purple loosestrife. These plants soak up water and take up 
space, driving out the native plants. Areas infested with weeds like 
leafy spurge lose almost all their forage value for both livestock and 
wildlife.
    What can we do to stop the spread of invasive species? Prevention 
and control work best, but only if they are done across ownerships on a 
landscape level. In the last two years, Nevada has formed 23 
Cooperative Weed Management Areas that focus on the prevention and 
control efforts needed to stop the spread. Through State and Private 
Forestry grants, the Forest Service has contributed $268,000 to support 
Cooperative Weed Management Areas in Nevada that work across 
administrative boundaries and land ownerships.

Loss of Open Space/Resource Land Conversion
    The third threat to National Forests is the loss of open space 
through land use conversion and development.
    How does that affect the nation's forests and grasslands? Years 
ago, the national forests were buffered by miles of rural landscape. 
Now they are increasingly part of the wildland/urban interface. People 
are increasingly living close to or adjacent to National Forests. 
Demands for services are growing, and so is the challenge of fire 
protection.
    In addition, the impacts of land conversion and fragmentation can 
be significant. We are losing open areas of range that are important as 
wildlife habitat and as resource lands for livestock grazing.
    When the Forest Service first started managing the land a century 
ago, overgrazing was a huge problem. Over time, we improved things by 
working closely with the ranchers. The ecological payoff has been 
significant. Keeping the land remaining whole and healthy benefits both 
wildlife and livestock.
    Now we face a different issue. Our population is growing, 
particularly in the West. Nevada remains one of the fastest-growing 
states in the nation. Developers target the privately held bottomlands 
adjacent to National Forests. Millions of acres of open range have been 
converted to ranchettes and other residential uses. New challenges 
occur with the creation of new wildland/urban interface areas, 
resulting in the possible loss of access to National Forest System 
land, and the loss of ecological integrity of the land.
    How can the Forest Service contribute to solutions? One way is to 
keep working forests and ranches in operation. The Forest Service has 
some good programs for that. Most significant of these is the Forest 
Legacy program that provides cost share funds to the state for use in 
acquiring conservation easements from willing landowners. We are 
committed to working with ranchers individually, rather than a one-
size-fits-all approach to allotment management. We work with ranchers 
and the Natural Resources Conservation Service to utilize that agency's 
various programs. We are doing everything within our means to deploy 
more range management specialists on the ground to build relationships 
with permittees so they can work together to solve problems. Grazing on 
National Forests and Grasslands is part of the solution, not part of 
the problem.

Unmanaged Outdoor Recreation
    The fourth threat comes from unmanaged outdoor recreation. In my 
years with the Forest Service, I have seen tremendous growth in the 
number of people recreating on National Forest land and in the types of 
activities in which people engage. Last year, the Intermountain Region 
had 22 million visits, which is just phenomenal. Recreationists 
participated in traditional activities, such as camping, fishing, 
hiking, and driving, for pleasure, and some rather recent recreational 
activities, such as mountain-bike riding, four-wheeling, snowboarding, 
and geo-caching--sort of a modern-day treasure hunt. The number of 
people and recreational activities will continue to grow. The challenge 
for the Forest Service is to accommodate the needs of recreationists 
while reducing resource damage to sensitive meadows and riparian areas 
and preventing conflict among different user groups.
    Peavine Mountain, located in Reno's backyard, offers many 
recreational opportunities. The Forest Service, Washoe County, and the 
City of Reno have cooperatively embarked upon a course of action to 
manage this mountain so as to ensure people are safe while recreating 
and not causing undue damage to the land. Here in Ely, the Duck Creek 
Travel Plan started with local citizens asking the White Pine Board of 
County Commissioners to address problem OHV travel in the Duck Creek 
Basin. The Forest Service and the BLM, in cooperation with the county, 
are completing an environmental analysis on recommendations made by the 
county's Coordinated Resource Management group, which address the OHV 
use and misuse.
    I want the American people to recreate outdoors. It gives them a 
stake in the land. It gives them a sense of place. It helps them 
understand why we in the Forest Service are so passionate about the 
land--why we think it is worth conserving.

Conclusion
    In closing, let me say that we will continue to address that which 
threatens the health of the forest and rangelands. To be successful we 
must continue to work with all who have a stake in the management of 
National Forests. So much of the healthy forest restoration work that 
is accomplished in Nevada must be done on a landscape scale, crossing 
administrative boundaries.
    This concludes my prepared remarks. I will be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Gibbons. We will turn now to Mr. Bob Abbey, Director of 
the BLM here in Nevada.

  STATEMENT OF ROBERT ABBEY, STATE DIRECTOR, NEVADA BUREAU OF 
 LAND MANAGEMENT, U.S. DEPARTMENT OF INTERIOR, ACCOMPANIED BY 
   GENE KOLKMAN, ELY FIELD MANAGER, BUREAU OF LAND MANAGEMENT

    Mr. Abbey. Thank you. Thank you, Congressman Gibbons. We 
appreciate your invitation to participate in today's field 
hearing to discuss forest and rangeland health in the Great 
Basin.
    With me this morning is Gene Kolkman, who is our BLM Ely 
field manager.
    We believe it's quite appropriate to have a field hearing 
here in Ely because one not only gets an opportunity to see 
some of the resource management challenges that we face, but we 
also have an opportunity to talk with people here at the local 
level who are working together to help us address our immediate 
and long-term needs. So again, we appreciate the Committee 
hosting this session here in Ely.
    As we have testified in recent hearings on forest health 
before the House of Representatives and the Senate, the 
Department of the Interior strongly supports the President's 
Healthy Forest Initiative, as well as H.R. 1904, the Healthy 
Forests Restoration Act of 2003.
    As you pointed out, the need for actions to restore our 
national public forests and rangelands to long-term health has 
never been greater. Last year wildfires burned about seven 
million acres of public and private lands across the Nation. 
This resulted in the destruction of over 800 primary residences 
and the evacuations of tens of thousands of people from 
hundreds of communities.
    Although wildland fire activity this year in Nevada has 
been less than the average of the last 10 years, potential for 
destructive wildfires is currently high. In Eastern Nevada, the 
pinyon-juniper woodlands are growing so dense that they crowd 
out other plant communities and prevent a healthy mix of 
appropriate vegetation to support wildlife, wild horses and 
livestock grazing, among other uses.
    Even though we have had extremely dry vegetation throughout 
the State this summer as well as last summer, we were fortunate 
that the thunderstorms that came through this State this year 
also brought some rain. We therefore avoided the dry lightning 
that has typically been the cause of many of our large 
wildfires.
    Recognizing the existing crisis, President Bush proposed 
the Healthy Forest Initiative in August of 2002. This 
initiative is based upon a common-sense approach to reducing 
the threat of catastrophic wildfires by restoring forests and 
rangeland health.
    Our goal is to ensure the long-term safety and health of 
communities and natural resources in our care. Our 
responsibility is to ensure the long-term health of our forests 
and rangelands for the use, benefit and enjoyment of our 
citizens as well as for generations yet to come.
    The Great Basin landscape which encompasses much of Nevada, 
the western half of Utah, the southern portion of Idaho, the 
southeast corner of Oregon, and a narrow strip of Eastern 
California, has seen a severe decline in native vegetation and 
wildlife as a result in part of wildfires. Between 1999 and 
2003, wildfires have burned more than 3.3 million acres of land 
across Nevada.
    Years of well-intentioned but misguided acts of suppression 
of wildfires have led to conditions in which pinyon and juniper 
trees dominate many areas where they historically occupied only 
small portions of the habitat. In such areas the previously 
diverse landscape of perennial grasses and forbs, sagebrush as 
well as trees, has evolved into a monoculture with limited 
species diversity. Noxious weeds and non-native annual grasses 
like cheatgrass gained a foothold where fire weakened or 
removed native vegetation. The lack of a natural fire regime 
has contributed to these conditions.
    As a result, entire watersheds are being impacted, water 
quality is being degraded, native wildlife habitat is 
disappearing, forage for wild horses and livestock is reduced, 
and as we notice throughout Nevada, local economies are also 
being threatened.
    In an effort to address these problems, the Bureau of Land 
Management introduced a concept after the 1999 fire season that 
we called the Great Basin Restoration Initiative, which was 
developed with the goal of restoring and maintaining the Great 
Basin's diverse ecosystem through coordinated efforts between 
Federal, State governments and local community interests.
    A key component of the Great Basin Restoration Initiative 
in Eastern Nevada is the Eastern Nevada Landscape Coalition 
whose purpose is to help implement the Eastern Nevada Landscape 
Restoration Project. This project is being designed to restore 
the ecosystem within the 10 million acres of public lands that 
are administered in Eastern Nevada by the Bureau of Land 
Management Ely Field Office and also lands managed by the U.S. 
Forest Service.
    As you will hear from a couple members from the Eastern 
Nevada Landscape Coalition, they're playing a significant role 
in helping us propose restoration activities that if 
implemented would certainly improve the overall health of these 
lands. Currently the Eastern Nevada Landscape Coalition's 
partner list has over 60 members, including the Bureau of Land 
Management, representing a broad spectrum of users and 
interests like other Federal, city and county governments, 
tribal governments, local universities and industry, 
conservation and recreation groups.
    In an effort to aggressively move forward under this 
partnership and begin implementing large-scale restoration 
initiatives, the Bureau of Land Management is conducting 
planning on a landscape basis. As part of the development of 
the Ely Resource Management Plan and Environmental Impact 
Statement, fuels reduction projects and other restoration 
treatments in eastern Great Basin are being evaluated. This 
plan is being developed with the assistance from numerous 
cooperating entities as well as Eastern Nevada Landscape 
Coalition.
    When complete, the Ely Resource Management Plan will serve 
as the base analysis and planning guidance for the Eastern 
Nevada Landscape Restoration Project. And to date, project 
scoping has been completed and alternatives are currently being 
developed. We expect to complete the resource management plan 
in 2005.
    In Nevada as a whole, the Bureau of Land Management spent 
nearly $6.5 million last year on 50 fuel assessment and 
treatment projects in at least 20 communities at risk in the 
wildland-urban interface.
    Mr. Chairman, the Department of Interior is committed to 
working with Congress, the State, local and tribal officials 
and the public to advance common-sense solutions to protect 
communities and people and restore forest and rangeland health. 
We certainly believe that H.R. 1904 provides the much-needed 
authorities for the agencies to move forward with the 
President's Healthy Forest Initiative. We were encouraged to 
see the prompt action by the House. We hope the Senate takes up 
this measure in Congress this session.
    Again, we thank you for the opportunity to appear before 
you today to discuss forest health and rangeland issues 
specific to Nevada and the Great Basin.
    [The prepared statement of Mr. Abbey follows:]

         Statement of Robert V. Abbey, Nevada State Director, 
       Bureau of Land Management, U.S. Department of the Interior

    Mr. Chairman:
    We appreciate your invitation to participate in today's field 
hearing to discuss forest and rangeland health in Nevada's Great Basin. 
Ely, Nevada, is an appropriate setting to discuss our efforts to 
improve the health of our Nation's public forests and rangelands given 
its proximity to nearly 70 million acres of Bureau of Land Management 
(BLM) public lands throughout portions of five states, including 
Nevada, that comprise the Great Basin. As we have testified in recent 
hearings on forest health before the House of Representatives and the 
Senate, the Department of the Interior strongly supports the 
President's Healthy Forests Initiative and H.R. 1904, the Healthy 
Forests Restoration Act of 2003.
Background
    The need for action to restore our Nation's public forests and 
rangelands to long-term health has never been greater. Catastrophic 
fires are just one consequence of the deteriorating state of forest and 
rangeland health that now affects approximately 190 million acres of 
public land, an area almost triple the size of Nevada. Last year, 
wildfires burned about seven million acres of public and private lands 
across the Nation. This resulted in the destruction of over 800 primary 
residences and the evacuation of tens of thousands of people from 
hundreds of communities.
    Although wildland fire activity this year has been less than the 
average of the last ten years, the potential for destructive wildfires 
is high. While this fire season did not produce the extensive fires 
experienced in 1999, 2000 and 2001, when over 2.6 million acres burned 
in Nevada, the on-going drought coupled with the changing condition of 
the Great Basin, as more fully discussed below, has significantly 
increased the potential for fire activity. All indications are that, 
given the current conditions, the potential for large and severe fires 
in Nevada will continue in the foreseeable future.
    Federal forests and rangelands across the country are also facing 
unusually high threats from the spread of invasive species. Changes in 
tree stand density, as well as in species composition and structure, 
due to decades of excluding or immediately suppressing fire, the lack 
of active management, and extended drought, are factors that have 
significantly affected the spread of invasive species. In the Great 
Basin, pinyon-juniper woodlands are growing so dense that they crowd 
out other plant communities and prevent a healthy mix of appropriate 
vegetation to support wildlife, wild horses, and livestock grazing.
Healthy Forests Initiative
    Recognizing the existing crisis, President Bush proposed the 
Healthy Forests Initiative (HFI) in August 2002. This initiative is 
based upon a common-sense approach to reducing the threat of 
catastrophic wildfires by restoring forest and rangeland health. Our 
goal is to ensure the long-term safety and health of communities and 
natural resources in our care. Our responsibility is to ensure the 
long-term health of our forests and rangelands for the use, benefit and 
enjoyment of our citizens and for generations to come. The President 
directed Federal agencies to develop several administrative and 
legislative tools to restore deteriorating Federal lands to healthy 
conditions and assist in executing core components of the National Fire 
Plan, established in 2000. Since the President's announcement in August 
of 2002, the Secretaries of Interior and Agriculture have taken several 
administrative actions to implement components of HFI, which include 
the following:
    <bullet>  Endangered Species Act Guidance--On December 11, 2002, 
the Fish and Wildlife Service (FWS) and National Oceanic and 
Atmospheric Administration Fisheries (NOAA Fisheries) issued joint 
guidance that allows multiple projects to be grouped into one 
consultation and provides direction on how to consider and balance 
potential short- and long-term beneficial and adverse impacts to 
endangered species when evaluating projects. The goal is to recognize 
that project-specific, short-term adverse impacts on species need to be 
weighed against the longer-term watershed level benefits to those and 
other species that such projects will achieve.
    <bullet>  CEQ Memorandum & Model Environmental Assessment 
Projects--CEQ Chairman Connaughton issued guidance addressing the 
preparation of model environmental assessments (Model EA) for fuels 
treatment projects that improve administrative processes. These 
guidelines are now being applied on both Forest Service (FS) and 
Department of the Interior (DOI) agency model fuels-treatment projects. 
The Mesquite Hazardous Fuels Project, approved this past August after a 
public review period, is an on-going Model EA Project that addresses 
tamarisk-infested stretches of the Virgin River in southern Nevada near 
the towns of Mesquite and Bunkerville. Under current conditions, 
tamarisk, a highly flammable non-native species, is establishing its 
dominance in burned areas and posing an increased risk of wildfire. The 
BLM was able to initiate this project this past September by removing 
five acres of tamarisk. Through a combination of mechanical thinning, 
hand removal, and revegetation, an additional 300 acres of tamarisk 
removal is targeted for completion next year, with a total planned 
treatment of 1,700 acres.
    <bullet>  Appeals Process Reform--Both the United States Department 
of Agriculture (USDA) and DOI made rule changes designed to encourage 
early and meaningful public participation in project planning, while 
continuing to provide the public an opportunity to seek review or to 
appeal project decisions. This enables issues to be resolved earlier in 
the project planning process, allowing for a more expedited application 
of hazardous fuels reduction projects.
    <bullet>  Categorical Exclusions (CE)--Both USDA and DOI have 
established new categorical exclusions, as provided under the National 
Environmental Policy Act, for certain hazardous fuels reduction 
projects and for post-fire rehabilitation projects. These new CEs 
shorten the time between identification of hazardous fuels treatment 
and restoration projects and their actual implementation on the ground.
    <bullet>  Proposed Section 7 Counterpart Regulation--FWS and NOAA 
Fisheries have proposed Section 7 joint counterpart regulations under 
the ESA to improve Section 7 consultation procedures for projects that 
support the National Fire Plan. The proposed regulations would provide, 
in some situations, an alternative to the existing Section 7 
consultation process by authorizing the agencies to make certain 
determinations without project-specific consultation and concurrence of 
the FWS and NOAA Fisheries.
    The Consolidated Appropriations Resolution, 2003 (Public Law 108-
7), signed into law on February 20, 2003, contains stewardship 
contracting authority, which allows the FS and the BLM to enter into 
long-term contracts with the private sector, non-profit organizations, 
local communities, and other entities to help achieve important land 
management objectives.
    The public input period for the joint agency guidance for long-term 
implementation of stewardship contracting closed on July 28, 2003. The 
agencies are completing formal analysis of the input for consideration 
in the development of final agency guidance which should be available 
sometime later this fall. In 2004, the BLM is studying the 
implementation of several stewardship contracts in Nevada and across 
the West. These projects will focus on a range of forest and rangeland 
health initiatives as well as wildland urban interface fuels reduction 
projects and biomass utilization projects.
    We believe these administrative actions will provide Federal land 
managers with useful tools as they work to restore public forest and 
rangelands to a condition where they can resist disease, insects, and 
catastrophic fire.
Forest and Rangeland Health in Nevada's Great Basin
    The Great Basin landscape, which encompasses much of Nevada, the 
western half of Utah, the lower third of Idaho, the southeast corner of 
Oregon, and a narrow strip of eastern California, has seen a severe 
decline in native vegetation and wildlife as a result, in part, of 
wildfires. Between 1999 and 2003 wildland fires burned more than 3.3 
million acres of land across Nevada's Great Basin.
    Years of well-intentioned, but misguided, active suppression of 
wildfires have led to conditions in which pinyon and juniper trees 
dominate many areas where they historically occupied only small 
portions of the habitat. In such areas, the previously diverse 
landscape of perennial grasses, forbs, sagebrush and trees has evolved 
into a monoculture with limited species diversity. Noxious weeds and 
non-native annual grasses like cheatgrass, gained a foothold where fire 
weakened or removed native vegetation. The lack of a natural fire 
regime has contributed to these conditions. As a result, entire 
watersheds are being impacted; water quality is being degraded; native 
wildlife habitat is disappearing; forage for wild horses and livestock 
is reduced; and local economies are being threatened.
    In an effort to address these problems, the Great Basin Restoration 
Initiative (GBRI) was developed with the goal of restoring and 
maintaining the Great Basin's diverse ecosystem through coordinated 
efforts between Federal and state governments and local community 
interests. A key component of GBRI is the Eastern Nevada Landscape 
Coalition (ENLC) whose purpose is to help implement the Eastern Nevada 
Landscape Restoration Project (ENLRP), a restoration initiative 
designed to restore the ecosystem within the 10 million acres of public 
lands that are administered in eastern Nevada by the BLM Ely Field 
Office.
    The ENLC is playing a significant role in restoration activities, 
assisting with project planning and implementation by establishing 
broad-based goals and objectives and providing the best available 
science for restoration projects. The Coalition's purpose is to develop 
a consensus on the Great Basin's overall health in eastern Nevada and 
to assist in the implementation of projects that restore the Great 
Basin to desired conditions. Currently, ENLC's partner list has over 
sixty members, including the BLM, representing a broad spectrum of 
public land users and interests like other Federal, city and county 
governments, tribal governments, local universities, and industry, 
conservation, and recreation groups.
    In an effort to aggressively move forward under the ENLC 
partnership and begin implementing large-scale restoration initiatives, 
the BLM is conducting planning on a landscape scale. As part of the 
development of the Ely Resource Management Plan and Environmental 
Impact Statement (Ely RMP/EIS), fuels reduction projects and other 
restoration treatments in the eastern Great Basin are being studied. 
This Plan is being developed with assistance from numerous cooperating 
entities, and ENLC is playing a large role in formulating the proposed 
actions and alternatives relative to restoration and maintenance of 
ecological health. When complete, the Ely RMP/EIS will serve as the 
base analysis and planning guidance for the ENLRP for restoration in 
the eastern Great Basin. To date, project scoping has been completed 
and alternatives are being developed. We expect to complete the RMP/EIS 
in the spring of 2005.
    In other geographic regions of the Great Basin, the BLM has been an 
important partner with local entities in restoration efforts under the 
GBRI. One example of a cooperative project is the Markleeville Fuels 
Treatment Project:
    <bullet>  Markleeville Fuels Treatment Project--During the fall of 
2002 and winter of 2003, the BLM Carson City Field Office completed a 
fuels treatment project in a forested area southeast of Lake Tahoe, 
Nevada. The Markleeville Fuels Treatment Project targeted public land 
adjacent to Marklevillage, a subdivision of Markleeville, California, 
with the aim of reducing crown fire potential and enhancing fire 
suppression capabilities. The treated area was adjacent to existing 
residences, as well as new residential development currently under 
construction. The BLM thinned the smaller trees and removed excess 
biomass on 45 heavily forested acres in an effort to clear ``ladder'' 
fuels and open up the overstory canopy for the growth and health of the 
remaining larger trees.
Conclusion
    Mr. Chairman, the Department of the Interior is committed to 
working with Congress, State, local and tribal officials, and the 
public to advance commonsense solutions to protect communities and 
people, and to restore forest and rangeland health. We believe that 
H.R. 1904 provides the much-needed authorities for the agencies to move 
forward with the President's Healthy Forests Initiative. We were 
encouraged to see prompt action by the House on H.R. 1904. We hope the 
Senate takes up the measure this Congress. Thank you again for the 
opportunity to appear here today to discuss healthy forests and issues 
specific to Nevada and the Great Basin. We will be glad to answer any 
question you may have.
                                 ______
                                 
    Mr. Gibbons. Thank you very much, Mr. Abbey, for the 
enlightening comments that both you and Mr. Troyer have 
presented to our Committee here, and we're very glad that you 
are able to be here today to talk to us.
    I have a question I think both of you need to address 
because it's one which I think is clear on its face when we in 
Congress talk about the issues of management of our public 
lands and how they are doing. You talked about the need for 
active forest and non-forest land management out there. 
Describe for us the regulatory challenges you face in just 
getting these management projects through the various analysis, 
the appeals process, the lawsuit process, et cetera. Explain 
the process, how long it takes, and why you have concerns with 
the lengthening process in this.
    Mr. Abbey. Let me start, and then Jack certainly can 
augment whatever I may say.
    First and foremost, I think it's as much an educational 
component as it is a regulatory component that we face as far 
as challenges. People love trees, and rightly so. People love 
rangelands, and rightly so.
    When we propose actions that may result in thinning of some 
of the woodlands that we see here in Nevada, or taking actions 
of mechanical treatments or even chemical treatments on the 
rangelands, certainly people are concerned about exactly how 
extensive those treatments are going to be and what are the 
long-term impacts of our actions of today. So again, I think as 
we look at the resource base that we're working within, we need 
to do a better job of informing the public of why such actions 
are needed.
    I think if we can lay the groundwork for a better 
understanding among all the interest groups, then I think we 
have a better opportunity to go through the planning process, 
which we're required to do, to identify what the projects are, 
to identify the likely consequences of the actions of 
implementing those projects on the ground, and then to assess 
again whether or not progress is made toward achieving the 
goals that we're setting, and that is to improve the overall 
health of these forests and rangelands that we manage on behalf 
of the American public.
    Now given the fact that we might not have done a very good 
job in the past of informing and certainly educating the public 
for the needs for some of these actions, then we are faced with 
some of the challenges through the protests, appeal and 
litigation processes that are available to any member of the 
public to pursue. As we go through our own planning process to 
identify the projects, to do the analysis, and then to issue a 
record decision, then any member of the public can protest, 
appeal or litigate those actions.
    Thankfully here in Nevada, at least under the National Fire 
Plan, we have had very few of our actions that have been 
litigated.
    Unfortunately, we did have a large-scale fuel reduction 
project that was proposed in Eastern Nevada that has been 
litigated. We have worked through a settlement agreement with 
the people who did file the lawsuit to allow us to address our 
most immediate needs, and that's to reduce the hazardous fuels 
around local communities. Here at Ward Mountain just outside of 
Ely and also the Mount Wilson Guest Ranch which is near Pioche.
    Again, this is just a band-aid approach. Our fear is that 
if we do have large-scale fire in any of these areas, that 
we're going to have our hands full relative to suppression.
    So there is some issues relative to the time frames that it 
takes us to complete some of the planning, the analysis that is 
required, and then again, to go through any protest or appeals 
or litigation before we're able to take those actions on the 
ground.
    Mr. Gibbons. What would be your estimate of the time delays 
in all of this, by the time you have gone through from the 
identification phase to the actual phase of actually having 
somebody on the ground beginning the process of thinning and 
taking out some of the unneeded fuels?
    Mr. Abbey. Congressman Gibbons, that could vary from 
project to project. To give you kind of a hip-pocket 
assessment, I would say it would take us anywhere between a 
year to 18 months once a project is proposed.
    Mr. Gibbons. Jack, do you have anything to add in there? 
But if you would, take this part and add it to your question. 
How much time does your agency have to invest in the process of 
planning, analysis and defense of a planned fire treatment 
area?
    Mr. Troyer. I believe on a national level that the Chief 
has to find that up to 40 percent of our resources can be 
devoted to planning, the entire planning part, doing the EIS's. 
But I need to--if that's wrong, I'll get back with you. But it 
is a significant number.
    But I would like to take a minute to answer your question 
because it is my favorite question to answer.
    Mr. Gibbons. OK.
    Mr. Troyer. We have a process predicament problem. We 
absolutely do. The Chief testified before Congress little over 
a year ago, committed the Forest Service to do something about 
that, and with the help of the Administration, we have done 
that. The new categorical exclusions are helping us.
    Mr. Gibbons. By the way, I do want you to go through 
categorical exclusion and help us better identify what that is, 
how it applies, what are its limitations, et cetera. Because 
that's something that is commonly used, and I don't think many 
of us have a perfect understanding of it.
    Mr. Troyer. I would be happy to do that. But to maybe 
finish my first point, we do have a process predicament 
problem. It was worse a year-and-a-half ago. It's better 
because of the efforts. We still have more work to do. It still 
takes too much time to do analysis and procedural requirements 
that take us beyond the point where we can already make a sound 
resource decision.
    Second point I'd like to make is none of our process 
predicament work has anything to do with making bad decisions 
faster. It is making good decisions faster. It has nothing to 
do with having less public involvement. I think it has to do 
with more public involvement.
    But I don't believe appeals and litigation are really 
public involvement. Once we get to that point, somehow we have 
already gone beyond the point where we can constructively work 
together with everybody involved.
    The third point I do want to reemphasize that Bob said is 
that we have a little less of the appeals litigation 
environment in Nevada than in most States. We have some but we 
have a little bit less.
    On the categorical exclusions, normally a project, we do an 
environmental analysis, we do scoping, we do a draft, and then 
we do a final, and we go through a process, and then it could 
be appealed, and as Bob says, it could be weeks, months and 18 
months while that process moves along. But there have always 
been certain tools, they are called categorical exclusions, 
exclusions to doing full-blown NEPA documentation. We lost some 
of those tools years ago in various court decisions. We did a 
lot of work and just a few months ago restored some of those 
various categories.
    So, for example, we can do fuels projects now that there 
are certain acreage limitations, but we don't need to do an EIS 
or an EA. We can do a categorical exclusion.
    Mr. Gibbons. What are the acreage limitations?
    Mr. Troyer. 1,000, 4,000.
    Mr. Gibbons. Acres?
    Mr. Troyer. Acres. For limited--there is another one for 
just limited tree removal where we can go up to say 50 acres if 
there is a small insect or disease outbreak. So we can move 
faster.
    There are--well, we just had an example that I worked 
through in Utah, Western Nevada, where we had a blow down, kind 
of a tornado like affair that came through and knocked over a 
couple hundred trees. That was before these categorical 
exclusions. So the district to get that project through NEPA, 
litigation, they had to do a 90-page environmental analysis. We 
then got a 20-page appeal, 20 different points on appealing a 
project that was going to remove 200 trees that were sort of 
knocked over along roads.
    So a similar thing happened recently, and using the CE, we 
were able to get through that in a couple months. So that is 
really a key point that I really wanted to say these are very, 
very important.
    Last point I guess I wanted to make on all of this is that 
we need to be more efficient and use more of our resources on 
getting dollars to the ground to treat more acres because that 
is really what it is about.
    Mr. Gibbons. Let me ask a question, because I know there is 
always going to be those who are skeptical of any legislation 
that Congress passes, and indeed, everything we do is not 
always perfect. That is a surprise to many of us.
    The Healthy Forests Initiative requires public involvement. 
It especially requires parties to be engaged in the early 
process if you want to preserve your opportunity to appeal and 
litigate it at the end. So in other words, if you want to be 
one of those Johnny-come-latelies that usually step in after 
the planning processes, after the decision and analysis have 
already been made and sue, you are going to find yourself being 
forced into it in the early part.
    Is being brought in in the early management or decision 
phase better? Does it result in a better product, or does it 
result in a better product to wait till you have all completed 
your analysis and sue you in court? That's kind of a directed 
question, I'm sure.
    Mr. Troyer. I absolutely believe that early public 
involvement is key to what we do. When we involve people from 
all points of view together, working with us, up front, we can 
normally reach consensus about taking action and doing 
something. But unfortunately, if you get 19 out of 20 or you 
get the local environmental groups and the local industry 
groups and everybody together, it really only takes one 
procedural error to lead to litigation that we might lose.
    So I think that's why these reforms have been helpful. 
Early public involvement is the key. We want more of it, not 
less.
    Mr. Gibbons. Bob, I don't mean to be ignoring you on all of 
these questions either.
    Mr. Abbey. You and I have a chance to talk quite often.
    Mr. Gibbons. Yes, we do, and I appreciate that.
    Mr. Troyer, you may have to ask Dr. Tausch to answer these 
questions. But when you talk about healthy forests, talking in 
pinyon trees and that kind, the coverage, what is the 
percentage or number of trees per acre that is considered 
healthy for this kind of an environment out here? What do we 
currently see today in terms of coverage in trees?
    Mr. Troyer. I can go ahead and answer that, but I would 
love to give Dr. Tausch a chance to give you about a 2-minute 
summary of his research on this, if you wouldn't mind.
    Mr. Gibbons. Sure. I would be happy if he wants to come up.
    Mr. Troyer. He's traveled here. Come up here.
    Mr. Gibbons. As long as you use the mike, introduce 
yourself.
    Mr. Tausch. My name is Robin Tausch. I'm a supervisory 
range scientist with the Rocky Mountain Research Station. My 
lab is on the University of Nevada, Reno campus.
    To start, to give you a little bit of a general background, 
there is critical watershed and critical wildlife habitats that 
are at risk from increasing tree dominance and the intense 
crown fires that often follow in the woodlands, as you already 
mentioned. This is putting a lot of ecological, social and 
economic values at risk, and those areas should be highly 
prioritized. But there is also many other areas that are 
involved that are not close to homes or communities.
    And Jack Troyer has already expressed the agency's concern 
about invasive species. From an ecological perspective, we 
can't overemphasize the importance of planning restoration 
treatments that help prevent the spread of invasives, and how 
you do those can make a big difference in promoting them.
    To be ecologically successful we need to identify the 
critical habitats that have been lost to pinyon-juniper 
invasion and restore those lost habitats with our restoration 
treatments. And I say, in addition, prior to treatment each 
area needs to be evaluated for the potential success of that 
treatment. We have limited resources, and we need to focus what 
we have on accomplishing the most.
    We need to consider whether the understory of desirable 
native plants and the kind of soil and its depth are adequate 
on each site and maximize the benefits of the treatment. If the 
understory isn't adequate, but it is a site that needs to be 
treated, the restoration treatments need to be designed to 
prepare the seedbed and plant the missing native plants to 
restore a functioning community.
    It makes sense to prioritize areas both with high values at 
risk and where we are confident we will get a good ecological 
return.
    And then to kind of address your question there, there is 
some confusion between pinyon-juniper woodlands and ponderosa 
pine woodlands or forests, and to prescribe fire rather than 
mechanical treatments that we do for ponderosa or Jeffrey pine 
on the east slope. And basically fire should not be used for 
the initial restoration treatments on tree-dominated sites 
because pinyon and juniper lack the thick bark the ponderosa 
has and are not ecologically adapted to fire.
    So it is not a matter of how many trees there are. 
Generally when a fire comes through, it will usually kill all 
the trees, particularly if it has become a closed canopy 
forest. Basically diversity within pinyon-juniper woodlands is 
having a diversity of areas that have and do not have trees 
rather closely intermixed than open stands of trees like are 
typical with the ponderosa pine. So it requires a little 
different approach, little different management goal.
    And generally, mechanical restoration treatments have much 
less negative impact on these tree-dominated ecosystems than 
the intense crown fires that are now increasingly becoming the 
alternative. And one of the major of these is if you can avoid 
the chance for conversion to cheatgrass, which we're 
increasingly seeing. With mechanical treatments land managers 
can design treatments to leave areas untreated where they are 
desirable for ecological reasons. And after the conditions of a 
more diverse system, particularly understory or restore, a 
prescribed fire can then be used in many cases to maintain 
these desirable conditions.
    Mr. Gibbons. How prevalent is the closed canopy system you 
are talking about in this area?
    Mr. Tausch. There are two parts to that.
    Mr. Gibbons. You came prepared, didn't you? It's like we 
had already talked about this.
    Mr. Tausch. It is a certain set of common questions that 
always come up. So I tried to take care of that.
    Mr. Gibbons. While you are looking for that, answer this 
question as well. You are talking about the fact that if there 
is a fire in this juniper canopy or this pinyon-juniper 
habitat, all the trees are going to die from that.
    Mr. Tausch. Almost entirely. There will be skip spots, fire 
jumps around, but the places it burns, almost universally every 
tree is taken out.
    Mr. Gibbons. So what is a healthy--what are the coverage? 
What is the coverage percentage of pinyon-juniper per acre for 
a healthy pinyon-juniper forest, if you would say?
    Mr. Tausch. Again, I'm going to need to provide some 
background on that because we're getting mixed up again with 
ponderosa pine. I'll try to illustrate the difference.
    Mr. Gibbons. OK.
    Mr. Tausch. Again, it is not how much coverage and how many 
trees per acre. It is how much coverage in a percent of the 
landscape is trees versus sagebrush.
    Mr. Gibbons. That is what I'm trying to get at. I didn't 
ask the question properly.
    Mr. Tausch. OK. I just need the clarification on that.
    Two parts to your question. First, about half the area 
where encroachment has already occurred, and these are areas 
where seedlings become established but still largely sagebrush 
dominated, are going to potentially become tree dominated over 
the next 40 years.
    And then as far as beyond that, I have been involved in a 
recent cooperative study that has involved the Pacific 
Northwest Research Station, the U.S. Geological Survey, the 
Rocky Mountain Research Station, where my part is, and this has 
been funded by the Bureau of Land Management, has investigated 
the potential for additional encroachment into new areas as a 
risk map. The initial results of that indicate that woodlands 
potentially increase by about another 20 percent over the next 
30 years.
    I would say the majority of the expansion has already 
occurred over the last hundred, hundred-fifty, but there is 
potential for additional in the Great Basin of Nevada. You get 
up into the Great Basin of Oregon, they could potentially 
double or triple over what is there now. So it kind of depends 
on where you are.
    Geological Survey has published a map that shows these 
areas at risk for encroachment. And I can give you the website 
on that, and if you are interested, I can show you the first 
pass of the map, if you want to see it.
    Mr. Gibbons. If you want to submit it, we will take it for 
the Committee record as well.
    Mr. Tausch. OK. The base of this map is the gap map, which 
is a remote sensing map of vegetation, and the only areas in 
the Great Basin where we felt the gap map of pinyon-juniper 
woodlands was accurate for this map happen to be this area, the 
three ecological provinces of the high central, where Ely is, 
and the western part of Nevada. And the areas on this map in 
red are those in this initial stage are estimated high risk for 
further encroachment. I'll turn it around so you can see it.
    A significant part of that red, the trees have already 
encroached. They have seedlings in. This is remote sensing from 
satellite, and if the tree covers below a certain threshold, 
then it doesn't pick up. They are still registered as 
sagebrush. That is included on that.
    And we have the website where you can see all the 
background information on that.
    Mr. Gibbons. The red area is where the trees are crowding 
out the sagebrush.
    Mr. Tausch. The red area is currently sagebrush that has 
already seedling trees in it or seedling trees could become 
established over the next 30 years. The yellow is areas of 
moderate risk. Due to higher elevation generally or other 
conditions, there is less of a chance of the trees coming in. 
And the dark green is areas that are already woodlands.
    Mr. Troyer. Correct me if I'm wrong, Robin, but I think the 
key point here is the red need to be treated; we don't get busy 
and treat that, it is going to head the wrong direction, we are 
going to have more of the same. Where already the trees are 
touching each other, we have already lost the understory. If we 
don't mechanically treat those lands, we are going to have more 
intense crown fires with more cheatgrass. I think that's the 
key point we wanted to make.
    Mr. Tausch. The red kind of helps identify areas where the 
treatments can be focused.
    Mr. Gibbons. How many acres are you talking about there 
that are in the red?
    Mr. Tausch. I didn't bring that data with me. It's on the 
website.
    Mr. Gibbons. Is it more than 5,000?
    Mr. Tausch. For that whole area as a whole it's over a 
million acres.
    Mr. Gibbons. So if you were limited to 5,000 acres at a 
time before you had to start doing EIS's and all that, you are 
talking a hundred years before you'd ever get there. By that 
time you would have the rest of it filled in.
    Mr. Tausch. In some ways, though, that is also only half 
the problem. As Jack Troyer said, we presently have about three 
or four times the amount of woodland we did a hundred to 150 
years ago. But only currently 20 to 25 percent of that 
expansion woodland areas is tree dominated. Another half of 
that is going to become tree dominated potentially over the 
next 40 years, just as the trees are already there grow up, 
just as they mature.
    Mr. Gibbons. Very briefly, because I want to make sure we 
have time for the next panel as well, the pinyon-juniper trees 
that are in this area, what use is there commercially for them? 
I mean, you can't take them out and log them like traditional 
people believe forests are going to be logged. But these trees 
don't have that same kind of value. What value is there in a 
juniper or pinyon pine?
    Mr. Tausch. In pinyon in particular, of course, there is 
firewood and Christmas trees. But work that has been done, 
apparently they have some very high quality chemicals such as 
turpentine in them, and they are potentially valuable as a 
source of fuel.
    But what has always interfered with that is transportation 
costs and the low level of productivity per acre. Although 
there is a lot of standing biomass out there now, it has taken 
over a hundred years to grow. There is a very long rotation 
time as you are trying to harvest and sustain some kind of 
industry. There are some real challenges in using them, even 
though there is a number of products that are fairly high 
quality.
    Mr. Gibbons. I'm just trying to figure out how to reduce 
the cost to the taxpayer for the mechanical treatment of this 
by using some commercial application of the product once it's 
removed from the ground.
    Mr. Troyer. Congressman, maybe the BLM has made progress on 
this as well. But I think a key point here, it is going to take 
something at a larger scale to make a significant dent in this 
huge problem.
    To me personally, somehow the word biomass has to be a 
piece of the problem. There is a lot of biomass research for 
cogeneration plants going on around the West, and figuring out 
how to do that, or maybe the concept of a mobile cogeneration 
plant.
    Somehow I think to do the acreage that needs to be treated, 
we have got to be thinking landscape level, big solutions like 
that. I was wondering, Bob--
    Mr. Abbey. Certainly the Congress has also provided us a 
tool recently, and that is through rechip contracting. Again, 
that provides us an opportunity to go out and encourage people 
to come in and help us through financial incentive to remove 
some of the woodlands that are going to be thinned.
    If I may, Congressman Gibbons, and I know you are short for 
time, but Robin talked about the threats of loss of woodlands 
to catastrophic fire and the need for thinning of some of the 
junipers. The biggest threat in addition to the loss of the 
woodlands and some of the rangelands associated with wildland 
fires is the threat of flooding, after we lose the 
effectiveness of that watershed.
    And all you have to do is travel here in Ely to see what 
might happen to this town should we lose the woodlands that are 
surrounding this town. And if we happen to have a fire, we're 
going to have some significant flooding, and that is where most 
of the damage will likely occur.
    Mr. Gibbons. Plus the influence of soil and runoff that 
gets into the water systems, clogs up municipal water systems. 
I mean, the end result is always a lot more catastrophic than 
the initial fire itself seem to be.
    One quick question before I let you go. Talk to me about 
the cost of treating land before a fire versus cost of treating 
the land after fire.
    Mr. Abbey. It is certainly a lot cheaper and more cost 
effective to be proactive in order to go forward and take the 
actions that are required in order to improve the overall 
health of these lands. I don't have the specific costs in front 
of me today, but I can certainly share that information with 
you and the members of this Committee.
    But I tell you, we really need to be investing in our 
natural resources, because we're going to spend the money one 
way or the other. I'd much rather spend the money up front to 
be proactive than to spend the money afterwards through 
suppression and rehabilitation activities.
    Mr. Gibbons. One final question for you, Mr. Troyer. You 
are not talking clearcutting anything, are you? You are just 
talking about thinning and removing of underbrush rather than 
clearcutting forests.
    Mr. Troyer. This is not a clearcutting forest issue; this 
is a thinning issue.
    I also neglected to mention one other sample program that 
can be part of the solution, one here in Nevada called Fuels 
for Schools where this material can be chipped up and used to 
burn and put into boilers and heat schools. So those are the 
examples of some of the innovative programs.
    And if I can add one thing on the pay-me-now, pay-me-later 
question, is here in the Forest Service, this is the fourth 
time in our history we have spent a billion dollars in fire 
suppression. Huge amounts of money. It absolutely can be spent 
better up front.
    Mr. Gibbons. Looking down at California today, I think you 
are going to spend a lot of money down there as well.
    Well, knowing that the Forest Health Bill does have the 
biomass utilization provision in it, which is important in 
things like you have just discussed, I think that's an 
important issue that we're going to try to push through as well 
in Congress.
    Gentlemen, I know there is a lot more we can sit here and 
talk about, and Dr. Tausch, thank you for your presentation. We 
will include your map up there for the record.
    And we want to excuse this panel and call up our third 
panel who will be bringing us additional information. The 
second panel, if we can call them up today, is: Mr. Steven 
Robinson, he's the State Forester, Nevada Division of Forestry; 
John Hiatt, Dr. John Hiatt, he is the Chairman of Board of 
Trustees of Eastern Nevada Landscape Coalition; Barry Perryman, 
Dr. Barry Perryman, Assistant Professor, Department of Animal 
Biotechnology, University of Nevada-Reno; Larry Johnson, who is 
part of the Eastern Nevada Landscape Coalition, board member; 
Rose Strickland, Chairman, Public Lands Committee, Toiyabe 
Sierra Club, Eastern Sierra Chapter for the Toiyabe Sierra 
Club.
    We have two mikes. You have to share the mike for 
everybody. I guess we can just start down in the same sense of 
presentation as I brought out.
    So Steve, it's a pleasure to see you again, and the floor 
is yours. Welcome. We look forward to your testimony.

         STATEMENT OF STEVE ROBINSON, STATE FORESTER, 
                  NEVADA DIVISION OF FORESTRY

    Mr. Robinson. Thanks, Mr. Chairman. My name is Steve 
Robinson. I'm the Nevada State Forester. And I'm here today to 
represent Governor Kenny Guinn's views and policy on Nevada's 
forest and rangelands health crisis.
    There is no question that the Federal and State governments 
are at a crossroads--either we take action to reduce the 
dangerous fuels buildup in our forests and rangelands or we 
ready our citizens for decades of enduring summers of choking 
air, reduced use of our public lands, mass evacuation of 
populations, homes destroyed and human lives lost. And yes, 
this can happen in Nevada.
    Specifically to address today's topic, Nevada's forest and 
rangeland health, the health of Nevada's rangelands and forests 
is not well, and it is deteriorating. We are, as you know, Mr. 
Chairman, a fire-prone State. In '99, almost 1.8 million acres 
burned in Nevada alone, 1.4 of that in less than a week, and 
that is the single largest total acres burned in the lower 48 
since the Montana-Idaho fires of 1910.
    Now some might say that it's just sagebrush, scrub pines, 
pinyon-juniper, and so what. But the negative effects of that 
fire year, '99, and an additional three million acres over the 
last 4 years, have made us more fire prone, as has been 
testified to, reduced our sagebrush habitat, added to the 
encroachment of pinyon-juniper, restricted public lands use for 
everyone, and if this trend is not stopped, we'll lose our 
sagebrush lands as we know it.
    Here in Nevada, 92 percent of our forests are currently 
composed of pinyon-juniper species, and that is growing. And as 
an illustration, Mr. Chairman, somebody showed me an overflight 
photograph of an area in the Douglas/Lyon County area, and my 
first fire was there about 30 years ago, as a college student, 
and they showed the density comparison of the pinyon-juniper 
about that time of the fire, 30 years ago, and the way it is 
today. Incredible density, a complete canopy over the forest. 
And I think that is just what you were talking about. That is 
what we face, unfortunately, all over the State.
    The distribution of Nevada wildfires for the last 20 years 
really show that the majority of the acreage occurs in pinyon-
juniper and sagebrush communities. And again, these acres on a 
national basis are thought of as second-class resources. As a 
State, we have to fight for fire suppression resources among 
some of the other Western States, which are thought of to have 
more valuable resources.
    The toll on Nevada wildlife has been severe, tremendous 
damage to biological resources and environmental qualities. At 
the end of the '99 fire storms, for instance, the Department of 
Wildlife, our Department of Wildlife, estimated habitat losses 
at almost a million acres of mule deer habitat, 700,000 acres 
of pronghorn antelope range, and 350,000 acres in the sage 
grouse habitat area. While at the same time we're trying to 
fend off a listing of the sage grouse as you mentioned.
    In spite of these trends, and I want to assure you that 
much activity is taking place by the State and local and 
Federal agencies. These gentlemen that were just up here want 
to do something. They want to get something done. I work with 
them on a daily basis, and I can assure you of their sincerity.
    Hundreds of fuels projects around the State have been 
accomplished over the last two or 3 years, and more are 
planned. But the Federal agencies simply have to accelerate how 
they do business on their land. The present condition just 
won't suffice.
    On a related subject, or the related subject, at least in 
my opinion, are fire fatalities, both civilian and firefighter. 
I have served on the board of directors of the National 
Firefighters Foundation for about 10 years now, and each year 
approximately a hundred firefighters die in the line of duty. 
This year almost 30,000 of those fatalities were in wildland 
fire, and the numbers are increasing.
    Clearly, even with the increased emphasis on safety, and we 
have fixed how we fight fires over the last few years, we fight 
them better and more safely, but the advent of these larger, 
hotter, longer duration fires cost lives. I'm absolutely 
certain of it. There is a change between how many we have lost 
20 years ago and what we're losing now.
    I know you, Congressman Gibbons, made an effort, a very 
vigorous effort to supply us with an air fleet more suitable 
for modern fire suppression, and I can assure you the fire 
service appreciates your efforts, sir.
    But this issue of restoring forest health, reducing 
unplanned catastrophic fires is not just a debate among 
competing land interests whether you can use the land or can't 
use the land. For firefighters it gets down to a life and death 
issue. And in your deliberations, I would just request that you 
consider that also.
    That concludes my testimony, Mr. Chairman.
    Mr. Gibbons. Thank you very much, Mr. Robinson.
    [The prepared statement of Mr. Robinson follows:]

        Statement of Steve Robinson, Nevada Division of Forestry

    Mr. Chairman:
    My name is Steve Robinson--I'm the Nevada State Forester and am 
here today to represent Governor Kenny Guinn's policy on Nevada's 
forest health crisis.
    There is no question the Federal and State governments are at a 
crossroads--either we take action to reduce the dangerous fuels buildup 
in our forests and rangelands or ready our citizens for decades of 
enduring summers of choking air, reduced recreation lands, mass 
evacuation of populations threatened by wildfire, homes destroyed and 
human lives lost, and the severe reduction of our sagebrush 
environment.
    Here in Nevada 92% of our forests are currently composed of pinyon 
and/or juniper species. Forests in the State of Nevada have fluctuated 
dramatically in their composition and geographic position. Currently, 
these forest types appear to be expanding, while other forest types, 
such as aspen, are decreasing. The impact of pinyon-juniper expansion 
is also impacting the brush and grassland areas in the state. This is a 
direct result of the interruption of fire as a natural disturbance 
regime.
    Insect-caused mortality combined with other diseases and the 
interruption of normal fire cycles have resulted in overstocked and/or 
over-mature forested stands. These stands, when faced with now over 13 
years of drought, are showing significant increases in mortality.
    Consequently, these conditions lead to large, catastrophic 
wildfires which are devastating the natural ecosystems in Nevada and 
other western states.
    From 1999 to 2001, over 2 million acres of federal land and 124,000 
acres of state and private land have been surveyed by the U.S. Forest 
Service and Nevada Division of Forestry, to determine forest health 
conditions and trends. This report is included in your packet. The 
effects of long-term drought and increased insect activity has become 
extremely evident throughout Nevada.
    Insect and disease caused tree mortality in Nevada has increased 
from under 50,000 trees in 1988 to over 250,000 trees in 1993. 
Unfortunately, forest mortality in Nevada is continuing to increase 
and, of the counties surveyed in 2001, almost 26,000 trees covering 
12,000 acres have died from insect and disease outbreaks. In White Pine 
County alone over 14,000 trees totaling 5,000 acres have died from 
insect and disease outbreaks in just the year 2001.
    This area, along with Elko County, have a Douglas Fir tussock moth 
outbreak, as well, on over 4,000 acres. Fir engraver beetle activity is 
heavy in the Ely, Nevada area, and the Mt. Pine beetle has caused tree 
mortality to increase from 11,000 trees in 1998 to over 43,000 in 2000 
in the intermountain region.
    Because the aerial survey could not fly the entire Pinyon-Juniper 
forest cover type in 2001, the extent of pinyon pine mortality is 
assumed much larger than the recorded coverage. This poses an 
increasing threat to populated areas in the urban interface.
    The distribution of Nevada wildfires from 1981 through 2000 shows 
that the majority of the wildfire acreage occurs in Pinyon-Juniper and 
sagebrush communities. These areas are often thought of as second-class 
resources, but, in fact, are the key to the Great Basin environmental 
future.
    From 1999 to 2001, almost 3,800 fires burned approximately 3.25 
million acres in Nevada. At the same time, expanding development of 
rural/small towns in these Pinyon-Juniper woodlands is increasing 
dramatically.
    These Nevada towns are surrounded by public lands. Allowing for 
greater flexibility in forest management of the Great Basin forests by 
the public land management agencies is the answer to treatment within 
the urban interface and across the landscape. We need every tool in the 
tool box to begin this effort which comprised millions of acres.
    Conifer forests along the western edge of the state along the 
Sierra also continue to experience bark and engraver beetle epidemics. 
This epidemic began in the late 1980's in response to eight year 
drought and heavily stocked forest stands. These beetles killed over 
1.2 million trees from 1985 through 2000.
    Especially troubling is the cumulative, long-term cultural and 
natural resource threats and losses caused by the greater intensity and 
number of large wildland fires in recent years.
    These fires threatened and took human life, killed livestock and 
destroyed structures, such as homes, fences, water developments, 
bridges, ranch buildings, and power lines. Clearly public policy must 
address this problem.
    The toll on wildlife in Nevada has been catastrophic. Tremendous 
damage to biological resources and environmental quality caused by the 
extraordinary wildfire behavior shows no signs of abating.
    <bullet>  At the end of August 1999 fire storms, the NDOW estimated 
habitat losses for some game species in the Pinyon-Juniper woodland and 
rangeland ecosystems:
    <bullet>  340,000 acres of deer winter range;
    <bullet>  305,000 acres of deer summer range;
    <bullet>  668,100 acres of pronghorn antelope range;
    <bullet>  45,500 acres of bighorn sheep range were seriously 
impacted; and
    <bullet>  Estimated almost 350,000 acres sage grouse habitat 
burned.
    These catastrophic fires clear the way for invasion of non-native 
invasive and noxious weeds. Cheatgrass, a flammable nonnative annual 
grass, is just one of the invasive weeds taking hold of the understory 
of shrub and Pinyon/Juniper communities, eventually forming 
monocultures.
    Weeds such as white top, cheat grass, tamarisk, and Russian 
knapweed are only a few of the well-known noxious and invasive weeds 
threatening our state's natural resources.
    This invasive and noxious weed crisis is one of the most aggressive 
threats to agriculture, wildlife and our public wildlands that Nevada 
has seen. Make no mistake, we are losing this battle.
    In spite of these alarming trends, I want to assure you much 
activity has taken place by your state, local and federal agencies, 
especially since the 2001 Congressional Fire Plan legislation. There 
are several efforts in the State of Nevada to address and reverse these 
negative trends in forest and rangeland health.
    Nevada State Plant Production nurseries and native Seedbank: Nevada 
Division of Forestry, Nevada Department of Agriculture, U.S. Forest 
Service, and the Bureau of Land Management and others, have joined 
together to improve the current Nevada native plant materials program. 
The goals are to increase and improve the current native plant and 
Seedbank program to help meet the upcoming needs for native and adapted 
plant materials. These materials will enable agencies, counties, and 
individuals to have easier, more efficient and affordable access to 
native plant materials for restoration of streams, forests, 
agricultural lands and rangelands impacted by weeds, insect and 
disease, and disasters, such as flood, fires and drought. Working 
groups between all public and State land management agencies is 
occurring.
    Noxious and Invasive Weed Control: All branches of the Department 
of Natural Resources, and the Federal Land Management agencies are 
working diligently with weed action groups, local governments and 
private individuals to put the stop to the increasing spread of these 
devastating weeds.
    The Nevada Department of Agriculture, Cooperative Extension 
services have been the lead in developing Weed Action groups and 
Cooperative Weed Management areas throughout our state.
    Biomass utilization: Efforts to reduce the fuels, thin the forest 
and remove dead trees from the forests have been inhibited by disposal 
or use of the remaining slash and wood. Small wood products industries 
are being explored as well as utilizing the wood chips and fuel for 
public buildings' heating source.
    Fuels For Schools, a program partnership between the City of Ely 
and Nevada Division of Forestry, is beginning its first pilot project. 
This project is in the feasibility assessment stage at a local grade 
school and holds great promise.
    Fuels Reduction efforts: In partnership with these federal 
agencies, the Nevada Division of Forestry through the National Fire 
Plan has issued over 300 grants to communities, individuals, 
organizations and volunteer fire departments for the reduction of 
fuels, fire safe planning and wildfire response.
    Over 300 acres in Wilson Canyon and Mt. Charleston area are being 
treated in efforts to protect over 600 homes and private parcels. 
Multiple smaller towns in Northern Nevada are currently working on fire 
protection and fuels reductions in the interface including: Ely, Baker, 
Austin, Pioche, Manhattan, and Jarbidge, just to name a few. Nevada 
Division of Forestry is also working with Glenbrook and Incline Village 
in Lake Tahoe and others across the Sierra front.
    Nevada's forests, rangelands and agriculture are at risk. These 
resources face high risk of catastrophic fire and weed infestations 
which may not be reversible if we continue at our current rate of 
treatment and land management funding levels.
    Decades of an accumulation of dense undergrowth and brush, along 
with drought conditions, insect infestation and disease and invasion by 
exotic species leave our state highly vulnerable to these 
environmentally destructive disasters. The long-term effects of these 
threats to lives, property and economics is clear. We must support 
actions to expedite high-priority fuel reduction and forest and 
rangeland restoration projects in our State and in our Nation.
    Finally, on the subject of fire fatalities, and if I might, Mr. 
Chairman, I have served on the Board of Directors of the National 
Fallen Firefighters Foundation for 10 years. Each year approximately 
100 firefighters die in the line of duty.
    This year, almost 30% of those fatalities are in wildland fire--and 
the numbers are increasing. Clearly, even with an increased emphasis on 
safety--the advent of larger, hotter, longer duration range and forest 
fires are killing an increasing number of young men and women. And I 
know, Congressman Gibbons has made much an effort to supply us with an 
air fleet more suitable for modern fire suppression. The fire service 
appreciates his efforts, sir.
    But this issue of restoring forest health and reducing unplanned 
catastrophic fire is not just a debate among competing ideologies--it 
is one of life and death to firefighters and I would ask you to 
consider that in your deliberations.
    Thank you for the opportunity to appear before you.
References:
Nevada Natural Resources Status Report--Nevada Department of 
        Conservation and Natural Resources.
Boise Interagency Fire Center website.
Western Great Basin Coordination Center website.
Insects and Disease in the Intermountain Region, 2001, S. Munson, USFS 
        Entomologist.
Nevada Forest Health Highlights--2001, USDS, USFS.
2001 Forest Insect and Disease Conditions in Nevada; USDA, USFS, Nevada 
        Division of Forestry.
    [NOTE: An attachment to Mr. Robinson's statement entitled ``2001 
Forest Insect and Disease Conditions in Nevada; USDA, USFS, Nevada 
Division of Forestry,'' has been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Gibbons. We turn now to Dr. Hiatt. Welcome.<plus-minus>

 STATEMENT OF JOHN HIATT, CHAIRMAN, BOARD OF TRUSTEES, EASTERN 
                   NEVADA LANDSCAPE COALITION

    Dr. Hiatt. Good morning. Thank you, Mr. Vice Chairman. My 
name is John Hiatt, and I'm Chairman of the Eastern Nevada 
Landscape Coalition, also known as ENLC.
    ENLC is a partnership of over 60 citizen groups, including 
the Nevada Cattlemens Association, the Nature Conservancy, 
Nevada Bighorns Unlimited, the Sierra Club, Fraternity of 
Desert Bighorn, Red Rock Audubon Society, and many others. 
These disparate groups have set aside their philosophical 
differences to work together to solve the very critical 
problems in the Great Basin. This is a precedent-setting 
endeavor.
    The problems of the Great Basin can and will be solved by a 
basic two-pronged approach. One, the collaboration of citizen 
groups with land managers; and two, the application of good 
science.
    The problems we are facing include: The increasing 
dominance of woody plants, such as pinyon and juniper trees, 
and decadent sagebrush, the increasing catastrophic fires that 
threaten both people and vegetative communities of the Great 
Basin, invasive exotic plants replacing native plants, loss of 
fertile topsoil, decreasing water quality and surface 
availability of that water, decreasing productivity of the 
lands for a variety of uses.
    I need to stress that all of these problems strongly affect 
the people now living in the Great Basin. Just as importantly, 
this unique ecologic treasure is being stolen from this and 
future generations. Allow me to expand upon the natural systems 
at work.
    Fire has historically played a critical, beneficial role as 
the major disturbance factor in maintaining healthy landscapes 
in the Great Basin. However, fire has become a catastrophic 
threat rather than a tool to improve landscape health. Climate 
variation, changes in disturbance regime due to improper 
grazing, fire suppression, not aggressively controlling 
invasives, and the failure to adapt our management have all 
contributed to our worsening situation.
    A collaborative approach is the key to dealing with these 
problems. Mr. Vice Chairman, people solve conservation problems 
by getting involved. In Eastern Nevada we are marshalling the 
combined forces of the management agencies, conservation 
organizations, and academic scientists, as well as community 
leaders and permittees, to solve these problems. The solution 
is management based on science. Several points in regards to 
management and science must be stressed.
    One, management must take a large-scale approach. 
Management must be implemented with the understanding that all 
components of landscape are linked and that evaluating health, 
not production, will result in management benefiting this and 
future generations. In the words of Bob Abbey, BLM Nevada State 
Director, it's about outcomes rather than outputs.
    Two, research must be usable. Research needed to support 
management must be applied research. For instance, we need to 
better understand the role of fire, climate, and other 
disturbances in the dynamics of Great Basin vegetation regimes 
to enable the systems to manage themselves. We have to 
concurrently implement management and research in an adaptive 
process.
    Three, analysis must tell us condition rather than what we 
can use. In an innovative move, the Ely BLM is using State and 
transition models in understanding the changes that have and 
are taking place. State in this context means vegetative State 
or community, and transition refers to an event in which an 
existing plant community is replaced by a different one. For 
instance, pinyon-juniper going to cheatgrass.
    When a threshold is crossed, it is difficult to return to 
the previous state.
    Four, we must resist invasive weeds. We need to increase 
our knowledge and develop tools for dealing with invasive non-
natives and also support the Tri County Weed District.
    Five, there is a need for a research facility to facilitate 
research, coordinate research efforts, and act as a central 
point for research and restoration information in the Great 
Basin. This effort would have both national and international 
implications.
    Six. Mr. Chairman, the Vice Chairman, the Great Basin is 
slipping away as we speak. We cannot afford to allow things to 
go on as usual. For instance, we are losing about 50,000 acres 
per year of sagebrush to pinyon-juniper dominance.
    Seven, pertaining to the Healthy Forest Initiative, unlike 
in the forest of the Northwest, in the Great Basin there is no 
sustainable commercial product in sufficient quantity to 
sustain funding for restoration for management in the Great 
Basin. It is one potential method for supporting restoration, 
and while it may be sustainable over time, the Great Basin will 
not produce wood products of sufficient value on a per acre 
basis to provide more than a moderate percentage of the funds 
needed.
    Eight. Funding for these efforts is needed so we may slow 
and then reverse the decline of the Great Basin condition.
    Mr. Larry Johnson will talk about wild horses, but I would 
like to use wild horses to make an analogy. 1971, Congress 
passed the National Wild and Free Roaming Horse and Burro Act. 
In the year or two after that there was an opportunity for 
ranchers to claim horses. Just a little bit of bureaucratic 
hassle involved, but they could claim those horses. In Utah, 
that happened, and most of the horses were removed from the 
range at that time.
    It did not happen in Nevada, and it didn't happen in most 
of the rest of the West. The result is that today between 30 
and 35 million Federal dollars are spent every year managing 
wild horses, and there is no light at the end of the tunnel. 
This is a black hole that we will be spending money on forever 
unless we significantly increase funding.
    We're in the same kind of position with regard to managing 
our wildlands in the Great Basin. We can either act now and 
spend some money or we will spend huge amounts of money 
indefinitely in the future.
    In closing, the ENLC is an imaginative approach to solving 
the problems in the Great Basin. The region's problems are 
landscape in scope, and the health of these landscapes is 
slipping away. The ENLC is a partnership of those who care for 
and work the land working side by side with those who manage 
the land with the people of our country. The tools being used 
are both management and the best science, both from existing 
information and applied research, with input from many sources 
to support that management.
    We are grateful to this Subcommittee for recognizing the 
serious problems facing both this region and the Nation, and 
thank you and the members of this Subcommittee for the 
opportunity to share our views. I would be happy to answer any 
questions.
    Mr. Gibbons. Thank you very much, Dr. Hiatt.
    [The prepared statement of Dr. Hiatt follows:]

  Statement of John Hiatt, Ph.D., Chairman of the Board of Trustees, 
                   Eastern Nevada Landscape Coalition

INTRODUCTION
    Thank you, Mr. Chairman. My name is John Hiatt and I am Chairman of 
the Board of Trustees for the Eastern Nevada Landscape Coalition (ENLC, 
the Coalition) with headquarters in Ely, Nevada. The coalition is a 
partnership whose mission is to restore ecological health to the Great 
Basin. We appreciate your invitation to participate in today's field 
hearing to discuss forest and rangeland health in Nevada's Great Basin. 
The Coalition supports the concept of the President's Healthy Forest 
Initiative and H.R. 1904, the Healthy Forest Restoration Act of 2003 
and sees them as one conduit to bring awareness and assistance to the 
precarious situation faced by the ecological systems in the Great 
Basin.
    It is our intent today to provide you with information on
    <bullet>  The Eastern Nevada Landscape Coalition, and our 
perspective on the natural resource challenges in the Great Basin 
(particularly in Nevada),
    <bullet>  The natural systems within the Great Basin
    <bullet>  The significance of our collaborative approach
    <bullet>  The science base for our activities
    <bullet>  Specific needs for eastern Nevada and
    <bullet>  A brief summary statement.

THE EASTERN NEVADA LANDSCAPE COALITION
    The Eastern Nevada Landscape Coalition is a community-based 
partnership of 60-plus diverse non-federal members whose goal is to 
support the restoration of the Great Basin landscapes, initially in 
eastern Nevada. ENLC partners include agricultural, conservation, 
cultural and environmental interests, plus members from private 
enterprise and the broader general public. It is a unique collaboration 
which has come together to address the very critical problems in the 
Great Basin. We have set aside philosophical differences to work 
together in this precedent-setting endeavor. In short, it is diverse 
collaboration ranging in perspective from the Toiyabe Chapter of the 
Sierra Club to the Nevada Cattlemen's Association.
    Allow me to share a little bit about needs in the Great Basin.
    The Great Basin Desert epitomizes the American West. It's 135,000 
square miles of expansive, rugged, harsh, arid land ... and yet at the 
same time, beautiful, inspiring and reassuring. It is a unique heritage 
site, unlike any other in the world. It covers a large portion of 
Nevada and extends into Utah, Idaho, Oregon and California. In its 
confines, rivers surface and disappear, monsoonal rains both replenish 
and devastate areas living under the annual specter of drought, wild 
horses run free, and north-south running mountain ranges, sometimes 
referred to as sky islands, are separated by seas of sagebrush and 
grasses. It is home to mule deer, desert bighorn sheep, antelope, elk 
and other less well known species of wildlife. The Great Basin is home 
to Native Americans, descendants of pioneers and recent emigrants, all 
who choose this panoramic region as a place to live. Simply put, it is 
a unique national treasure whose diversity is threatened.
    The Great Basin, as we have known it, is changing; in fact, it is 
slipping away. Catastrophic fires, invasive-exotic weeds and grasses 
and domination by woody plants, are the lead problems facing the 
region, and are stealing from future generations. Historically, fire 
was a relatively frequent agent of renewal and rejuvenation, both on 
the valley floors and in the mountains releasing sagebrush, native 
grasses and wildflowers from competition. This renewal provided a 
healthy mosaic of vegetation and habitat for wildlife and livestock. 
These resilient conditions have been replaced by less frequent, larger 
and more intense fires that encourage the invasion of exotic plants, 
lower water quality, increase erosion and dramatically reduce wildlife 
habitat. Because of this reduction in the natural resource base, 
recreational opportunities are declining and local economies are 
negatively affected.
    The people of the Great Basin are facing the following problems:

INCREASING DOMINANCE OF WOODY PLANTS SUCH AS PINION AND JUNIPER TREES.
    Pinion and Juniper (P/J) are an integral component of the 
sagebrush/grass/pinion/juniper complex while at the same time there are 
distinct P/J woodland communities. However, because of past management 
and fire suppression, woody species (including sagebrush) have begun to 
dominate sites of healthy sagebrush and perennial grasses. This results 
in increasingly closed canopy shading out native perennial grasses. 
This has the effect of reducing the traditional disturbance regime, 
which was renewing the various landscapes. That primary disturbance is 
fire.

FIRE IS A NATURAL EVENT.
    Fire has historically played a critical, beneficial role as the 
major disturbance factor in maintaining healthy landscapes in the Great 
Basin.
    But increasingly, fire has become a catastrophic threat rather than 
a tool for maintaining health. Climate variation, changes in the 
disturbance regime from improper grazing, fire suppression, not 
aggressively controlling invasives as well as the failure to adapt our 
management have all contributed to our current degraded condition.
    This has resulted in the domination of woody species in the 
herbaceous/sagebrush/pinyon-juniper complex as well as elevated fuel 
accumulations in woodlands. As a result, the naturally recurring, 
relatively benign, wildland fires of yesteryear, which rejuvenated the 
land and released native grasses and wildflowers, giving them 
competitive advantage over shrubs have largely disappeared. The 
reduction in fine fuels (grass) and increase in woody fuels has 
increased the danger of large, dangerous fires that threaten both 
people and the Great Basin itself. These fires burn with such heat that 
the seed sources below them are destroyed. The resulting decrease in 
ecological resiliency to fire favors: accelerating erosion, invasion of 
exotic vegetation, reduced diversity, limits habitat for certain high 
profile species and, the almost unrecoverable alteration of vegetative 
communities.

INVASIVE EXOTIC PLANTS REPLACING NATIVE PLANTS.
    Exotic invasives tend to be more adapted to frequent fires and 
seize every opportunity to replace perennial grasses. The rapid 
expansion of noxious weeds and non-native annual grasses (which are 
more fire adaptable), i.e., cheatgrass, have replaced the widespread 
native perennial bunchgrasses, wildflowers and shrubs. Entire 
mountainsides and/or valleys have lost their ecological diversity as 
well as potential for wildlife habitat. Water quality has been degraded 
and water quantity decreased. Forage for wild horses and livestock has 
become reduced and undependable. Because of this reduction in the 
natural resource base, recreational opportunities are declining, 
traditional cultural values are at risk and local economies are 
threatened. As a result of denuded landscapes, critical topsoil 
resources are lost.
    I need to stress that all of these problems strongly affect the 
people now living in the Great Basin. But, just as importantly, these 
problems are also stealing the heritage of this and future generations 
which is this unique national ecological treasure. The problems of the 
Great Basin can and will be solved by a basic two pronged approach, (1) 
the collaboration of citizen groups with land managers and (2) the 
application of good science. These problems are being addressed through 
improved management supported by collaboration and better science.
    OURS IS A COMPREHENSIVE APPROACH to a Basin-wide problem. A 
collaborative approach is the key to the solutions to these threats. 
People solve conservation problems by getting involved. In eastern 
Nevada we are marshalling the combined forces of the management 
agencies, conservation organizations, wildlife groups, and academic 
scientists as well as community leaders and permittees to solve these 
problems.
    These problems will not be solved without management and that 
management must be based on science. The BLM Eastern Nevada Landscape 
Restoration Project (ENLRP) is supported by the first four points found 
below. The four points that follow are recognized by the Coalition as 
critical to achieving the goal of restoring ecological health to the 
Great Basin.
    1.  MANAGEMENT MUST TAKE A LARGE-SCALE APPROACH. The management 
must be implemented with the understanding that components of the 
landscape are all linked and that evaluating health, not production, 
will result in being able to implement management for long-term 
benefits for this, and future generations.
    2.  RESEARCH MUST BE USABLE. Research needed to support management 
must be applied research. For instance, we need to better understand 
the role of fire, climate and other disturbances in the dynamics of 
Great Basin vegetation regimes to enable the systems to manage 
themselves. We have to concurrently implement management and research 
in an adaptive process. Currently, there is ongoing applied research 
looking at the topics of birds and small mammals, hydrology and 
cheatgrass control but more is needed.
    3.  ANALYSIS MUST TELL U.S. ABOUT CONDITION AND HEALTH RATHER THAN 
WHAT WE CAN USE. In an innovative move under the ENLRP, the Ely BLM is 
using vegetation state and transition models in understanding the 
changes that have and are taking place. BLM is also implementing 
adaptive management in compliance with legislation and regulations to 
improve the management of resources.
    4.  WE MUST RESIST INVASIVE WEEDS. We need to increase our 
knowledge of techniques and develop tools for dealing with invasive 
non-natives and support the Tri County Weed District. We also must 
increase funding to curb the increase in invasives.
    5.  A RESEARCH FACILITY. The problems faced in the Great Basin have 
commonality with those faced in arid environments throughout the world. 
Problems people commonly face include desertification, inadequate 
knowledge of landscape scale restoration practices, maintaining water 
quality and quantity and developing a perspective of long-term 
management goals. Moreover, people often are confronted with major 
problems in attempting to attain a level of sustainable land use 
because of inadequate knowledge. Acquiring adequate knowledge for 
managing the Great Basin is needed and it can come from two sources, 
adaptive management (with appropriate monitoring) and applied research. 
There is a crying need for a research facility located in Eastern 
Nevada to facilitate research, bring research into coordination with 
management and act as a central point for Research and restoration 
information in the Great Basin. We envision a facility that not only 
provides much-needed testing and innovations for restoring the Great 
Basin, but also acts as a conduit to share knowledge with other 
locations as well as visiting scientists from throughout the globe.
    6.  THE GREAT BASIN IS SLIPPING AWAY, NOW. We cannot afford to 
allow things to go on ``as usual.'' Please see Perryman et al's paper 
on the Ecological Cost of Doing Nothing.
    7.  Pertaining to the healthy forest initiative; unlike in the 
forested northwest, in the Great Basin there is no sustainable 
COMMERCIAL forest PRODUCT in sufficient quantity and of great enough 
value to sustain funding for restoration or management IN THE GREAT 
BASIN. It is one potential method for supporting restoration, and while 
it may be sustainable, the Great Basin will not produce wood products 
in sufficient quantity or quality to support more than a moderate 
percentage of the funds needed.
    8.  FUNDING FOR THESE EFFORTS IS NEEDED so we may slow and then 
reverse the decline of the great basin condition.
    In CLOSING: The ENLC is an imaginative part of the approach to 
solving the problems of the Great Basin. The Great Basin's problems are 
landscape in scale, and the health of these landscapes is slipping 
away. The ENLC is a partnership of those who care for and work the 
land, working side by side with those who manage the land for the 
people of our country. And the tools being used are both management and 
the best science (both from existing information and applied research) 
with the input from many sources to support that management.
    We are grateful to this subcommittee for recognizing the serious 
problems facing both this region and the nation and thank the Chairman 
and members of this subcommittee for the opportunity to share the views 
of the Eastern Nevada Landscape Coalition.
                                 ______
                                 
    Mr. Gibbons. Turn now to Dr. Perryman. Welcome. The floor 
is yours.

       STATEMENT OF BARRY PERRYMAN, ASSISTANT PROFESSOR, 
 DEPARTMENT OF ANIMAL BIOTECHNOLOGY, UNIVERSITY OF NEVADA-RENO

    Dr. Perryman. Thank you. Appreciate it.
    Mr. Gibbons. If you want to pull that microphone just a 
little bit closer.
    Dr. Perryman. How is this? I thank the Committee for the 
opportunity to be able to speak today, and what I'd like to do 
really is try and frame what we have already been talking about 
in reality a little bit more and deal with the scope of the 
problem.
    Land managers have over the past several decades suppressed 
fires effectively allowing succession, that is the change in 
plant community species over time, to proceed to a point where 
we now have millions of acres supporting plant communities that 
are in very late seral stages, dominated or encroached by woody 
species. Many of these sagebrush communities, and that's what 
we're talking about today primarily are sagebrush communities 
that have trees on them now, have crossed successional 
thresholds. The loss of perennial herbaceous understory, that 
will require additional inputs of energy and dollars to 
accelerate and direct succession in a way that society desires.
    We have created a homogenous landscape that now threatens 
to limit our management options, reducing our ability to 
provide ecosystem services valued by society. We suppressed 
fire for the past several decades with the approval of society 
because we wanted what the landscape gave us at that time.
    In the past we were influenced by the pristine management 
paradigm, the idea that ecological systems were static entities 
that could be held in a static condition if we protected them 
from burning and other disturbances. We desired a condition 
that resembled the landscape at the time of European 
settlement. We now know that this was an impossible goal. We 
cannot go back to the conditions of 1850. However, active, 
dynamic, disturbance regimes prior to European settlement 
created the landscapes that fostered the values so highly 
prized by our society.
    Plant communities do not develop to a point and become 
static. They continue to develop and change until some 
disturbance like fire sets the successional process back to 
earlier stages. If we are talking about successional time 
scales, recovery and change may be inevitable. However, 
centuries and millennial time scales are not acceptable to 
society. We must intervene in the successional process on 
millions of acres before succession develops stages that are 
too expensive or beyond our technological abilities to mitigate 
in a reasonable time scale.
    We must manage the landscape instead of taking the 
protection course that we have been pursuing for the past 
several decades. By protecting it from disturbance we severely 
limit or destroy our options for the future.
    To be successful in this endeavor we as a society must 
begin to initiate a paradigm shift with respect to our 
management of these lands. Past management approaches have 
generally been reactive. For example, large burn areas in 
recent years have received concentrated, intense rehabilitation 
efforts. The merits of fire rehabilitation are unchallenged and 
should continue.
    However, reactive management activities have dominated land 
management practice while little attention has been given to 
proactive management. We must begin to intervene in the 
successional process rather than rely entirely on reactive 
activities and their associated funding.
    We must overcome the institutional inertia within our 
society, government, and land management agencies that is 
dedicated to the reactive management approach. We must allow 
disturbances to be active and manageable on the landscape. In 
order to achieve this paradigm shift, we must be more proactive 
in our management strategies. In our management strategies 
certainly we have to take into consideration the scope of the 
problem.
    BLM--and Bob can correct me on this--BLM gets about one 
dollar an acre to manage lands in Nevada. About a dollar an 
acre. Ten dollars an acre would be a good start.
    The scope of the problem is amazing. Robin alluded to the 
process that's going on out there. We probably--and Robin could 
probably give us better figures than I can right now--but we 
could probably treat a million acres this year and not gain 
anything. The problem is that large behind us. If we treated a 
million acres this year, we might just break even.
    In 1999, there were approximately 1.8 million acres that 
burned in Nevada. Out of that 1.8 million acres, about 400,000 
acres received rehabilitation practices, and out of that 
400,000 acres, about 80,000 acres received 100 percent native 
seed rehab. That's because all of the native seed on the market 
was purchased.
    We don't have the resources to do what we need to do now. 
It's not there. And the process is just continuing to grow and 
grow.
    What is good habitat today, excellent habitat today, will 
not be excellent habitat in 40 years. It changes on the 
landscape. And we have to recognize that fact, and I don't 
think we do a very good job of that in society as a whole.
    But the magnitude of the problem is just immense, and the 
seriousness of it, the timeliness of it is strategic. Three 
generations from now, two, three generations from now, if we 
don't do something on a large scale, we will not see the Great 
Basin as we know it today.
    That's not my opinion; you can look it up. That's reality. 
So thank you.
    Mr. Gibbons. Your opinion is very valuable to this 
Committee. I was just thinking about the one billion dollars.
    [The prepared statement of Dr. Perryman follows:]

Statement of Barry L. Perryman, Ph.D., Assistant Professor, Department 
           of Animal Biotechnology, University of Nevada-Reno

                               VIEWPOINT

              Eastern Nevada Landscape Coalition Position
there are consequences of doing nothing in natural resource management. 
                             what are they?

     By Barry L. Perryman, Robert E. Wilson, and William I. Morrill

    Fire disturbance has played an integral role in the ecology and 
development of semi-arid plant communities throughout western North 
America. Altered fire intervals and regimes since European settlement 
have led to pervasive alterations in species richness, diversity, fuel 
loads, and associated processes such as nutrient cycling and 
biogeochemistry within native rangeland plant communities.
    Disruptions have occurred at multiple spatial and temporal scales. 
Consequently, values prized by society such as water quality and 
quantity, minimal soil erosion, wildlife and domestic animal habitat 
(including sagebrush and other obligate species), and ecological 
integrity have been compromised to varying degrees. This is 
particularly true in the sagebrush ecosystems of the western U.S.
    Fire intervals and regimes changed in the late 1800s during 
European settlement as a result of newly imposed grazing systems for 
domestic animals, introduction of exotic plant species, construction of 
fire breaks (e.g., roads, crop agriculture), and fire suppression 
activities. Consequently, fire frequency, severity, seasonality, and 
spatial extent have changed.
    For example, at the higher elevations and moisture levels (e.g., 
sagebrush-grassland communities), lengthened fire intervals have 
resulted in pinyon and/or juniper encroachment. This has led to 
progressive decreases in fine fuels while increasing woody fuel loads.
    Species richness and diversity decline dramatically as overstory 
canopies close. In contrast, the lower elevation, drier communities 
(i.e., Wyoming big sagebrush-grasslands and salt desert shrub 
communities) have been invaded by exotic annual grasses (e.g., 
cheatgrass) resulting in increases in fine fuels, decreases in woody 
fuels and increased fire frequency.
    Cumulative non-ecological results in both of these situations are 
an increased risk to human life and property, and incredibly 
high fire management costs.
Two Primary Concerns
    Two major problems resulting from past fire suppression activities 
are common to the sagebrush ecosystem:
    1) Longer time periods between fires (lengthened fire intervals) at 
higher elevations (higher precipitation zones) have allowed various 
junipers and/or pinyon pines to encroach into mountain sagebrush 
grassland communities.
    In the Great Basin, juniper and pinyon are relatively long-lived 
species (approximately 1,000 and 600 years, respectively). Depending on 
specific location, U.S. Forest Service researcher Robin Tausch 
estimates that 66 to over 90% of individual trees are less than 130 
years old. Fire return intervals have increased from 12-25 years to 
over 100 years.
    These communities lose the perennial herbaceous and shrub 
understory as the canopy closes in large part due to competition from 
the encroaching conifers. This encroachment further leads to 
unmanageable fuel loads and very intense fires resulting in final loss 
or elimination of perennial understory species, and loss of the 
original sagebrush habitat.
    Without a healthy understory, these disturbed communities become 
susceptible to annual brome or other invasive species establishment, 
further reducing habitat quality for sagebrush obligates and other 
species both wild and domestic, that utilize sagebrush habitats.
    2) At mid and lower elevations, longer fire intervals have created 
decadent, climax sagebrush systems that dominate very large areas on 
the land scape.
    These communities have lost the perennial herbaceous understory in 
large part due to competition from dense competitive sagebrush plants. 
The shrub overstory in these systems is continuous and contiguous 
leading to fuel continuities that burn hotter and more extensively than 
normal.
    These areas have also been invaded by the introduced annual brome, 
``cheatgrass.'' This species is very successful since there are no 
perennial, herbaceous species to compete with. After extensive fires in 
these systems, cheatgrass proliferates even more because fire removes 
sagebrush (and other shrubs), the only competitor in the system. As 
fire intervals become shorter due to the fuel loading of the annual 
brome, areas that a single generation ago were sagebrush grasslands, 
can be converted to annual grasslands dominated by non-indigenous 
species.
    The geographic scale of these problems is overwhelming. Millions of 
acres are currently in need of fire/fuel management and rehabilitation/
restoration treatments. These problems are common to much of Nevada, 
including much of White Pine County.
Consequences Today
    Plant community succession is a dynamic process that occurs even in 
``hands-off'' management situations. The endpoint of the successional 
process is not a static condition, it is in reality a cliff from which 
the community can fall, leading to disastrous ecological results. 
Consequences of doing nothing are not acceptable societal values.
    Intervention in the successional process allows society to maintain 
options for the future. For instance, if we continue to allow 
encroachment and canopy closure of pinyon/juniper communities into 
sagebrush communities, understory species (including both sagebrush and 
herbaceous species) will disappear because they cannot compete with the 
conifers for water, nutrients, and light.
    As these plants die off, bare ground increases under the conifer 
canopy. Bare ground is highly susceptible to erosion. A single, major 
precipitation event will move millions of tons of topsoil into stream 
and riparian systems, reducing water quality everywhere downstream of 
the source.
    Bare ground is also highly susceptible to invasion by annual brome 
grasses and other noxious weeds. Disturbed areas are always colonized 
by weedy species, and when there are no native perennial species to act 
as a competitive buff e r, introduced annuals (cheatgrass) will 
proliferate to a point where only inputs with extremely high economic 
costs (reseeding etc.) will mitigate the situation. In both scenarios, 
management and value options are limited.
    Without topsoil, we cannot expect the area to return to a similar 
sagebrush ecosystem without extreme mitigation measures (unless a 
several thousand year time period is acceptable to our society!).
    An annual grassland will not recover and return to a sagebrush 
ecosystem without tremendously expensive inputs and several decades of 
time. If the ecological potential of a site is lowered, management and 
value options are decreased. For example, we cannot manage for some 
types of sage grouse habitat if we have no topsoil on a given area or 
if the area is an annual brome grassland.
    Intervention in the successional process through management of 
introduced fire or other means allows society to maintain management 
and societal value options for the future.
The Successional Process
    Natural resource or land management is the manipulation of the 
successional process so the resource can provide the qualities, 
products, and values society desires. As land managers we can only 
accelerate and direct succession. We accelerate it by introducing 
propagules into disturbed areas rather than waiting for natural 
processes such as seed rain to occur.
    We direct succession by introducing disturbances such as fire and 
herbivory to achieve plant community compositions that provide products 
or services determined by society.
    Ecologists and land managers understand that a diverse landscape 
(in terms of the mix of different plant community types and species 
within those communities) provides more opportunities to achieve the 
objectives that society desires. In the sagebrush ecosystem, we 
currently have a homogenous situation rather than the heterogeneous one 
we desire.
    Current conditions are a result of many past management practices, 
in particular fire suppression. Fires have been passively suppressed 
since European settlement by alterations in fuel loads and 
establishment of roads, and actively suppressed since about 1940 when 
motorized vehicles and aircraft with capacities to haul large 
quantities of water became available. For the previous 2.5 million 
years (since the beginning of the Pleistocene), fire was prevalent on 
the landscape, initiated by both natural and for the last several 
millennia, anthropic ignitions by Native Americans. Fire was a 
``natural'' intervening disturbance in the successional process, 
periodically removing woody vegetation such as sagebrush and pinyon/
juniper, effectively setting the successional process back a few 
stages. Succession would then move back to stages that supported more 
woody vegetation, and so the process continued with this cyclic nature 
providing a heterogeneous landscape.
    Land managers have, over the past several decades, suppressed 
fires, effectively allowing succession to proceed to a point where we 
now have millions of acres supporting plant communities that are in 
very late seral stages, dominated or encroached by woody species. Many 
of these sagebrush communities have crossed successional thresholds 
(e.g., loss of the perennial, herbaceous understory) that will require 
additional inputs of energy and dollars to accelerate and direct 
succession in a way that society desires. We have created a homogeneous 
landscape that now threatens to limit our management options, reducing 
our ability to provide ecosystem services valued by society.
    We suppressed fire for the past several decades with the approval 
of society because we wanted what the landscape gave us at that time. 
In the past we were influenced by the pristine-management-paradigm, the 
idea that ecological systems were static entities that could be held in 
a static condition if we protected them from burning and other 
disturbances.
    We desired a condition that resembled the landscape at the time of 
European settlement. We now know this was an impossible goal.
    We cannot go back to the conditions in 1850 AD. However, active 
dynamic disturbance regimes prior to European settlement created the 
landscape that fostered the values so highly prized by our society.
    Plant communities do not develop to a point and become static. They 
continue to develop and change until some disturbance (e.g., fire) sets 
the successional process back to earlier stages. If we are talking 
about successional time scales, recovery and change are inevitable. 
However, centuries and millennial time scales are not acceptable to 
society.
    We must intervene in the successional process on millions of acres 
before succession develops stages that are too expensive or beyond our 
technological abilities to mitigate in a reasonable time scale.
    We must manage the landscape instead of taking the protection 
course we have been pursuing for the past several decades. By 
protecting it from disturbance, we severely limit or destroy our 
options for the future.
    To be successful in this endeavor, we as a society must begin to 
initiate a paradigm shift with respect to our management of these 
lands. Past management approaches have generally been reactive. For 
example, large burn areas in recent years have received concentrated, 
intense rehabilitation efforts. The merits of fire rehabilitation are 
unchallenged and should continue.
    However, reactive management activities have dominated land 
management practice while little attention has been given to proactive 
management. We must begin to intervene in the successional process 
rather than rely entirely on reactive activities and their associated 
funding.
    We must overcome the institutional inertia within our society, 
government, and land management agencies that is dedicated to the 
reactive management approach. We must allow disturbances to be active 
and manageable on the landscape. In order to achieve this paradigm 
shift, we must be more proactive in our management strategies.
    Between 1994 and 1999, the U.S. taxpayer paid $2,972,473,600 in 
fire suppression costs. Reducing fire suppression efforts by only 25% 
would have provided a savings of approximately $743 million over the 6-
year period. Funds that could have been invested in restoration 
activities to further reduce fire management costs. Over 19 million 
acres burned during the period. As a result, many of these acres were 
converted to annual grasslands that will require additional funds for 
rehabilitation and restoration activities.
    The Nature Conservancy and others list invasive species as the 
second leading cause of species endangerment nationwide. About 42% of 
all federally threatened or endangered species are listed because of 
threats from invasive plants. Neil West, Utah State University, 
estimates that 25% of the original sagebrush ecosystem is now an annual 
cheatgrass/medusa-head rye grassland, and an additional 25% of the 
sagebrush ecosystem has only cheatgrass as an understory constituent. 
Annual grass invasions may only be the first wave; perennial invasive 
species are already making serious inroads into adjoining states and 
Nevada as well. Potential subsequent domination by perennial invasive 
species will virtually eliminate any resource values for society.
    Other costs of not changing our management approach, or the costs 
of doing nothing include: accelerated loss of topsoil, reduced water 
quality and quantity, riparian zone degradation, loss of riparian zone 
and wetland area, loss of wildlife and domestic animal forages and 
habitats, loss of wildlife and plant species, loss of species richness 
and abundance in general, loss of aesthetic appeal, loss of recreation 
potential, loss of western and Native American cultural values and life 
ways, loss of civic communities, economic depression in rural areas, 
loss of carbon sequestration potential, opportunity costs of fire 
suppression activities, lowered air quality, perhaps loss of life and 
property, loss of a source of national pride and environmental 
influence in the world community.
    This trend cannot continue if we wish to preserve our options for 
the future. We must change our management paradigm, we must intervene 
in the successional process across millions of acres on our western 
rangelands or future generations will inherit a landscape devoid of 
many of the values we now enjoy.
    Note: Viewpoints expressed are those of the individual authors and 
not the entire SRM membership.

Other Reading

Tausch, R.J. 1999. Historic pinyon and juniper woodland development. 
        In: Monsen, S.B. and Stevens, R., comps. Proceedings: ecology 
        and management of pinyon-juniper communities within the 
        Interior West; 1997 Sept 15-18; Provo, UT. Proc. RMRS-P-9. 
        Ogden, Ut: USDA Forest Serv., Rocky Mountain Res. Stat.
West, N.E. 1999. Synecology and disturbance regimes of sagebrush steppe 
        ecosystems. Pp. 15-26 in Entwistle, P.G., A.M. DeBolt, J.H. 
        Kaltenecker, and K. Steenhof, compilers. Sagebrush Steppe 
        Ecosystems Symposium. BLM Pub. No: BLM/ID/PT-001001+1150. 
        Boise, Id. $$
                                 ______
                                 
    Mr. Gibbons. We will turn now to Mr. Larry Johnson, Eastern 
Nevada Landscape Coalition, Board Member. Mr. Johnson, welcome. 
Pleasure to have you and see you again. The floor is yours.

           STATEMENT OF LARRY JOHNSON, BOARD MEMBER, 
               EASTERN NEVADA LANDSCAPE COALITION

    Mr. Johnson. Vice Chairman Gibbons, thank you very much for 
the opportunity to provide testimony on forest and rangeland 
health in Nevada's Great Basin.
    I'm a Board member of Eastern Nevada Landscape Coalition as 
a wildlife representative, and as such, I'm also very heavily 
involved in a number of wildlife conservation organizations 
around the State, predominantly, Nevada Bighorns Unlimited and 
the Coalition for Nevada's Wildlife, although I'm a member of 
every other sportsman organization you ever heard of.
    These wildlife conservation groups are entirely volunteer 
entities that raise money, and put in thousands of man-hours 
every year for a common goal, and that is to enhance Nevada's 
wildlife resources.
    We're extremely successful in bighorn sheep and elk and 
mule deer, antelope, sage grouse, fisheries type programs 
around the State.
    We're heavily involved in big game reintroductions, water 
development, habitat improvement, wildfire reseeding, 
education, research and land planning. Although we're pretty 
good at what we do, and proud of our successes, we're faced 
with many challenges which at times almost seem overwhelming, 
and I have to echo essentially what Dr. Perryman said. Our 
challenges are great.
    Most notable of these challenges from a wildland standpoint 
is our rapid loss of habitat. And in Nevada, this destruction 
of wildlife habitat is primarily due to wildfire followed by an 
invasion of non-native plant species such as cheatgrass, 
pinyon-juniper intrusion into sagebrush and native grass 
communities, and third, overpopulation of wild horses. Major 
problem in the State of Nevada since we have between half and 
two-thirds of the population of all wild horse and burros in 
North America that reside here. And vastly over-appropriate 
management levels.
    The alarming result of our last loss of habitat has been 
steady decline of sagebrush-obligate species. Now we monitor 
those that are of most importance to sportsmen very carefully 
through our State Department of Wildlife. So we have biannual 
surveys of mule deer as well as other big game animals. 
Tremendous interest in sage grouse. A lot of effort and funds 
that are going into monitoring, trying to figure out why we 
have a steady decline of these species, not only in Nevada but 
essentially across the West as well.
    But these species of mule deer and sage grouse really are 
just reflecting what is happening to the myriad of other 
species that are dependent upon healthy sagebrush communities 
as well.
    As has been stated several times here today, we lose over 
50,000 acres annually to pinyon-juniper invasion. Springs dry 
up because these woodlands use the water that would be 
available to wildlife. The closed canopy chokes out the 
understory of shrubs and grasses necessary to support wildlife, 
and entire watersheds are degraded. The pinyon-juniper canopy 
becomes so dense that the inevitable lightning strike starts a 
wildfire that is uncontrollable and burns so hot that it 
sterilizes the ground of its native seed bed. Guess what? We 
get cheatgrasses, we get invasive species coming back in.
    Since inadequate funding or manpower exists to adequately 
restore the huge burns, and we saw, just heard the very, very 
small percentage of land that was restored after the '99 burn, 
groups like Nevada Bighorns Unlimited threw practically all of 
our annual budget into purchasing seed that year. We almost did 
nothing else but purchase seed.
    But a losing battle. The end result is a steady decline in 
the wildlife, and of course, the extreme danger to humans from 
both fire and the subsequent flooding. We don't mention loss of 
grazing for domestic livestock.
    This is a loss to the public in general.
    At the Eastern Nevada Landscape Coalition, our board has 
long recognized the need to reverse this alarming trend. We 
urge a proactive and much more cost effective approach of 
thinning pinyon-juniper in contract to the present costly 
ineffective reaction of fighting fire and reseeding afterwards. 
Our volunteer board, which represents ranching, 
environmentalists, wildlife, small business, local government 
and others takes away from their businesses and private lives 
for common goal and that is to create a better Nevada. We're 
strong supporters of the multiple uses of our public land. We 
know that all of our special interests must work together for 
this common goal.
    We recognize our efforts will not be realized immediately 
but will greatly benefit future generations. However, our 
biggest mistake would be to do nothing. Thank you.
    Mr. Gibbons. Thank you very much, Mr. Johnson.
    [The prepared statement of Mr. Johnson follows:]

 Statement of Larry J. Johnson, Board Member, Eastern Nevada Landscape 
    Coalition, Director, Nevada Bighorns Unlimited--Reno, Chairman, 
                    Coalition for Nevada's Wildlife

    Chairman Pombo and Committee Members:
    Thank you for the opportunity to provide testimony on the forest 
and rangeland health in Nevada's Great Basin. I am a Board Member of 
the Eastern Nevada Landscape Coalition as a wildlife representative. I 
am also heavily involved in wildlife conservation organizations across 
the state. I am a director of Nevada Bighorns Unlimited--Reno and 
Chairman of the Coalition for Nevada's Wildlife. These wildlife 
conservation groups are entirely volunteer entities that focus on the 
enhancement of our wildlife resources through big game reintroduction, 
water development, habitat improvement, wildfire reseeding, education, 
research, and land planning. Nevada Bighorns Unlimited, for instance, 
in partnership with our state Department of Wildlife and federal land 
management agencies, has reintroduced bighorn sheep back into over 50 
mountain ranges in Nevada. (Bighorn sheep faced extinction by man only 
a century ago.) We believe this is the most ambitious and successful 
big game reintroduction program in the world--largely funded by private 
donations and volunteer efforts.
    In spite of our successes, we are faced with many challenges which 
at times seem overwhelming. Most notable of these challenges is our 
rapid loss of wildlife habitat--not only in Nevada, but across the 
Great Basin. In Nevada this destruction of wildlife habitat is 
primarily due to:
    1.  Wildfire followed by the invasion of non-native plant species, 
such as cheat grass;
    2.  Pinion/juniper intrusion into sagebrush and native grass 
communities; and,
    3.  Wild horse overpopulation.
    The alarming result has been the steady decline of sagebrush-
obligate species--notably the mule deer and the sage grouse. These 
species are heavily monitored and are indicative of the adverse impacts 
on a myriad of other wildlife species depending on healthy rangeland.
    We lose over 50,000 acres annually to pinion/juniper invasion in 
the BLM Ely District alone. Springs dry up, the closed timber canopy 
chokes out the understory of shrubs and grasses necessary to support 
wildlife, and entire watersheds are degraded. The pinion/juniper canopy 
becomes so dense that when the inevitable lightning strike starts a 
wildfire, it is uncontrollable and burns so hot that it sterilizes the 
ground of its native seed bed. Since inadequate funding or manpower 
exists to adequately restore the huge burns, a permanent loss of 
wildlife habitat results. The end result is a decline in wildlife, 
extreme danger to humans and wildlife from fire and subsequent 
flooding, loss of grazing for domestic livestock--a loss to the public 
in general.
    At the Eastern Nevada Landscape Coalition our board has long-
recognized the need to reverse this alarming trend. We urge a proactive 
and much more cost-effective approach of thinning pinion/juniper in 
contrast to the present costly and ineffective reaction to fighting 
fire and reseeding afterward. Our volunteer board (representing 
ranching, environmentalists, wildlife, small business, and local 
government) takes time away from their businesses and private lives for 
a common goal--to create a better Nevada. We are strong supporters of 
multiple uses on our public lands, and we know that all of our special 
interests must work together for this common goal. We fully recognize 
our efforts will not be realized immediately, but will greatly benefit 
future generations; however, our biggest mistake would be to do 
nothing.
    Thank you for your consideration.
                                 ______
                                 
    Mr. Gibbons. We will turn now to Mrs. Rose Strickland. It 
is always a pleasure to see you, Rose. Welcome. She is the 
Chairman of the Public Lands Committee of the Toiyabe Sierra 
Club for the Nevada Eastern Sierra Chapter.
    Welcome, Rose. The floor is yours.

STATEMENT OF ROSE STRICKLAND, CHAIRMAN, PUBLIC LANDS COMMITTEE, 
          TOIYABE SIERRA CLUB, EASTERN SIERRA CHAPTER

    Ms. Strickland. Thank you, Mr. Gibbons. Thank you for 
inviting me to testify today on forest and rangeland health in 
the Great Basin.
    My name is Rose Strickland. I'm a citizen, conservationist 
in Nevada. As a Resource Advisory Committee member I helped 
develop the Nevada standards for healthy rangelands. I was 
appointed to the Governor's sage grouse team which developed 
our State's conservation strategy, selected to participate in 
our Western Governor's Association panel on how that strategy 
is working.
    Great Basin ecosystems are threatened with a number of 
risks, as you have heard today from other panel members. These 
are not new problems. Aldo Leopold wrote about the cheatgrass 
problem in Sand County Almanac in 1949. But our collective 
efforts since 1949 have not been sufficient to stop cheatgrass 
invasion or other problems.
    We have come a long way. We have big horn sheep in most of 
our ranges in Nevada. And the elk are coming back. So we are 
making some progress.
    The BLM's Great Basin Restoration Initiative is a good 
start at assessing resource conditions and prioritizing 
restoration efforts. Restoring healthy rangelands and forests 
is a powerful idea. Everyone can support this.
    But we have yet to fully agree on what restoration is. Is 
it pre-settlement conditions, more livestock forage, more elk 
or sage grouse? Are pinyon-juniper woodlands invading shrub 
lands or simply responding to unwise land management practices 
which help the trees out-compete shrubs and grasses?
    Developing restoration goals and objectives through the 
current forest and public land use planning processes will give 
us a chance to build common definitions in a restoration vision 
based on the best available science as well as to help us 
resolve our differences on specific sites. Conversely, making 
restoration an internal agency process with little or no 
community or public participation will result in very obvious 
future environmental disasters, a colossal waste of taxpayer 
funds, and continued polarization rather than widespread public 
support for restoration.
    Mr. Abbey mentioned the only lawsuit in Nevada challenging 
a legally flawed fuels reduction project, and the settlement 
which resolved the environmental and legal issues, and the 
smaller more effective project was authorized to proceed, and I 
believe it has. The Eastern Nevada Landscape Coalition was 
involved in this project, but its role in its design is 
unclear. The Sierra Club has recently joined the coalition to 
support its collaborative approach to restoration but expects 
the proposals to be effective and environmentally sound.
    Many Nevadans participated in an earlier collaborative 
process called CRMP but were disappointed in the lack of 
results. However, the coalition is a new effort which we will 
help to succeed.
    An integral part of restoration planning is determining why 
conditions are not healthy and correcting the causes of the 
problems. These include, for example, fire policies which 
result in excessive fuels buildup. In Nevada, total fire 
suppression is the problem.
    On the other hand, short-term, expensive, band-aid 
solutions may be exactly what is needed in situations where 
human lives and property, critical watersheds, or invaluable 
wildlife habitat are at risk from wildfires.
    Because we don't know exactly what healthy conditions look 
like in Great Basin ecosystems, our approach should be 
conservative. Using pilot projects we can answer the many 
scientific questions about restoration on specific sites.
    For example, Partners in Flight has identified nine bird 
species dependent on pinyon-juniper woodlands on its North 
American continental watch list. Pinyon-juniper woodlands in 
the Great Basin support over 20 percent of the world's 
populations of these birds. Our restoration efforts should not 
accelerate declining trends of these species which would lead 
to the need for more listings.
    What can we do in the long term to achieve our restoration 
goals? Fully implementing forest plan standards and the BLM 
standards for healthy rangelands would greatly accelerate 
progress toward restoration.
    In conclusion, many of us are urging Congress to respond to 
the serious threats to Great Basin ecosystems by providing more 
funds for restoration efforts being initiated by the Forest 
Service, the BLM, and Western States and communities.
    The growing urgency to address these threats is uniting all 
Nevadans. Whether we enjoy the public lands for hunting, 
fishing or bird watching, for making our livelihoods from 
grazing, minerals, or energy, for relying on its clean water 
supplies, for experiencing wilderness, for providing scenic 
beauty and spiritual inspiration, all of us recognize that our 
future well-being depends on the restoration of healthy Great 
Basin national forests and public lands.
    Thank you for providing an opportunity for Nevadans to 
express to you today our deep concerns about the need for 
restoration and describe many of the ways we are addressing 
restoration challenges and opportunities in the Great Basin.
    Mr. Gibbons. Thank you very much, Rose. We appreciate your 
comments as well.
    [The prepared statement of Ms. Strickland follows:]

    Statement of Rose Strickland, Chairman, Public Lands Committee, 
           Toiyabe Sierra Club, Nevada Eastern Sierra Chapter

    Mr. Chairman, thank you for inviting me to testify today on forest 
and rangeland health in the Great Basin.
    I am Rose Strickland, a citizen conservationist in Nevada. As a 
member of BLM's Nevada Resource Advisory Committee, I helped develop 
standards and guidelines for healthy rangelands. Currently, I am the 
appointed environmental representative on the Nevada Governor's Sage 
Grouse Conservation Planning Team, and participated on a Nevada panel 
at the Western Governor's Association meeting in Salt Lake City last 
year to discuss how the process is working. I also am a member of the 
Washoe-Modoc local planning group which has completed conservation 
plans for 6 Sage Grouse population areas in Northwestern Nevada and 
Eastern California.
    Great Basin ecosystems are threatened with a number of risks, as 
you've heard today from other panel members. Increasing catastrophic 
wildfires, expanding noxious weed invasions, increasing loss and 
fragmentation of sagebrush communities and wildlife populations 
dependent on them, declining conditions of riparian areas are also 
adversely affecting our communities dependent on public resources and 
also dependent on clean water supplies from public watersheds. These 
are not ``new'' problems. Aldo Leopold wrote about the cheat grass 
problem in SAND COUNTY ALMANAC in 1949. But our collective efforts 
since 1949 have not been sufficient to correct cheat grass invasion or 
other problems.
    The BLM's Great Basin Restoration Initiative is a good start at 
identifying our resources, assessing their conditions, determining 
which are at risk, and prioritizing restoration activities based on 
need and potential effectiveness. Restoring healthy rangelands and 
forests is a powerful idea--everyone can support this. But we have yet 
to fully agree on what restoration is: Is it pre-settlement conditions? 
More forage for livestock? More elk or Sage Grouse? Are pinyon-juniper 
woodlands ``invading'' shrub lands, or simply responding to unwise land 
management practices which help the trees out-compete shrubs and 
grasses? Developing restoration goals and objectives through the 
current forest and public land use planning processes will give us a 
chance to build common definitions and a restoration vision based on 
the best available science, as well as to help resolve our differences 
on specific sites. Keeping the public out of the restoration process, 
not assessing environmental impacts, and not basing agency actions on 
the best available science will result in very obvious future 
environmental disasters, a colossal waste of taxpayer funds, and 
continued polarization, rather than widespread public support for 
restoration.
    I know of only one lawsuit in Nevada challenging 2 legally flawed 
fuels reduction projects. An out-of-court settlement resolved the 
environmental and legal issues and the smaller, but more effective, 
projects were authorized to proceed. The Eastern Nevada Landscape 
Coalition was involved in these two projects, but its role in their 
design is unclear. The Sierra Club has joined the Coalition to support 
its collaborative approach to restoration, but expects its proposals to 
be effective and environmentally sound. Many Nevadans participated in 
an earlier collaborative process called CRMP--cooperative resource 
management planning--but were disappointed in the lack of results 
despite hundreds of hours of meetings, plans, etc. But the Coalition is 
a new effort, which we hope will succeed.
    An integral part of restoration planning is determining ``why'' 
conditions are not healthy, and correcting the causes of the problems. 
Rather than spending scarce restoration funds on ``band aid 
solutions,'' projects which treat symptoms, the Forest Service and the 
BLM should address the underlying management problems which are putting 
our ecosystems at risk. These include, for example, livestock grazing 
practices, indiscriminate off-road vehicle and other recreational uses, 
and fire policies which result in excessive fuels buildup. In Nevada, 
total fire suppression IS the problem and, unfortunately, national 
forests and BLM offices are being forced to take their fuels reduction 
budget to pay the costs for total fire suppression. To continue 
programs which are causing the need for restoration is not sound public 
policy.
    On the other hand, short-term, expensive Band-Aid solutions may be 
exactly what is needed in situations where human lives and property, 
critical watersheds, or invaluable wildlife habitat are at risk from 
wildfires. These emergency measures should be restricted to areas of 
greatest risk. The Forest Service and the BLM should analyze which 
areas in Nevada have experienced the greatest number and severity of 
wildfires in the last decade and concentrate their resources on these 
areas first. In Nevada, most recent fires have occurred in sagebrush 
communities which are then trapped in the cheat grass-fire cycle, less 
so in our pinyon-juniper woodlands.
    Because we don't know exactly what healthy conditions look like in 
Great Basin ecosystems, our approach should be conservative, using 
experiments and demonstration projects which will answer the many 
scientific and social questions of where, how much, how, and what we 
can ``restore'' on specific kinds of sites and using project monitoring 
for adaptive management. For example, Partners in Flight have 
identified 9 bird species, dependent on pinyon-juniper woodlands, on 
its North American continental watch list. Pinyon-juniper woodlands in 
the Great Basin support over 20% of the world's populations of these 
birds. Our restoration efforts should not further jeopardize the 
existence of these species, leading to more listings under the 
Endangered Species Act. Utilizing the Nevada Sage Grouse Conservation 
Plan, the Nevada Bird Conservation Plan, and other plans to restore 
healthy wildlife populations and habitats should help us avoid future 
train wrecks for birds and wildlife in our restoration efforts. The 
Forest Service has published two conference proceedings on Pinyon-
Juniper ecology and management from which Best Management Practices can 
be developed.
    What can we do, in the long-term, to achieve our restoration goals? 
Fully implementing Forest Plan standards and the BLM's Standards for 
Healthy Rangelands would greatly accelerate progress towards 
restoration. While we've come a long way from historic, unmanaged 
livestock grazing which so altered Great Basin plant communities, we 
still have a long way to go. From the 2002 Public Land Statistics, 
healthy riparian-wetland goals are still to be achieved: only 7.4 
percent of riparian areas in Nevada is meeting management objectives; 
only 7% is at potential natural community; and only 48% of wetland/
riparian areas is in proper functioning condition.
    In conclusion, many of us are urging Congress to respond to the 
many threats to healthy Great Basin ecosystems by providing more funds 
for restoration efforts being initiated by the Forest Service, the BLM, 
and Western states and communities. Many federal funds are currently 
being matched by state and community funds and volunteer hours. While 
additional funds will help, our land management agencies must use those 
funds wisely by addressing the management problems causing ecosystem 
health problems. The growing urgency to address these threats is 
uniting all Nevadans. Whether we enjoy the public lands for hunting, 
fishing, or birdwatching, for making our livelihoods from grazing, 
minerals, or energy, for relying on its clean water supplies, for 
experiencing wilderness, for providing scenic beauty and spiritual 
inspiration, we all recognize that our future well-being depends on the 
restoration of healthy Great Basin national forests and public lands.
    Thank you for providing an opportunity for Nevadans to express to 
you today our deep concerns about the need for restoration and describe 
many of the ways we are addressing restoration challenges and 
opportunities in the Great Basin.

REFERENCES:
Governor Guinn's Sage Grouse Conservation Planning Team Nevada Sage 
        Grouse Conservation Strategy, edited by Larry A. Neel, October 
        2001.
Leopold, Aldo Sand County Almanac, 1949.
BLM Out of Ashes, An Opportunity, November 1999.
BLM The Great Basin: Healing the Land, April 2000.
Rich, T. D. et al Draft Partners In Flight North American Landbird 
        Conservation Plan, 2003.
Nevada Partners in Flight Working Group Nevada Partners in Flight Bird 
        Conservation Plan, edited by Larry A. Neel, November 29, 1999.
USDA: Forest Service, Rocky Mountain Research Station Proceedings: 
        Ecology and Management of Pinyon-Juniper Communities within the 
        Interior West, June 1999.
USDA: Forest Service, Intermountain Research Station Proceedings--
        Pinyon-Juniper Conference, January 1987.
USDI, BLM Public Land Statistics, 2002.
                                 ______
                                 
    Mr. Gibbons. I'm going to start off and begin by asking 
each of you to sort of pull out your crystal ball and look 50 
years into the future. I know that's going to be difficult. I 
know some of you are probably saying that's an impossible task. 
But I just want you to give me your opinion of what you would 
expect Nevada to look like if we were to continue down the road 
of status quo. In other words, doing what we're doing today, 
what would we look like 50 years from now? I know that a lot of 
you don't want to answer this question because it's a pretty 
vague question.
    But let me start with Steve and see what your comments are.
    Mr. Robinson. Well, I'll try to sort of answer your 
question, Congressman.
    I think there will be, if things are maintained as they are 
now, suppression efforts with fire the way they are, the 
deterioration of the landscape the way it is, the immensity of 
the fires that we will have to fight over the next decade, for 
instance, I think will lead to a public reaction that will 
force us into doing something, to force us into taking more 
radical action than probably we're prepared politically to do 
now.
    So I guess my thinking--I think fairly optimistic about the 
long-term condition because I think in the shorter term, 
people, the public, will force us to do something if we don't 
do it very quickly.
    Mr. Gibbons. OK. Dr. Hiatt.
    Dr. Hiatt. I guess I would look back and see what some of 
these areas looked like 50 years ago and see what they look 
like today. And having seen many photographs taken in those 
times and looking at those same areas today, I see areas that 
had scattered trees and were mostly sagebrush and grasslands at 
that time now being heavily dominated by trees.
    So if I had to guess what it would look like in 50 years, I 
would guess that we will probably have somewhere at least five 
million more acres of tree-dominated land than we have today, 
but not all of that would just be the case. We would also have 
fire. Those areas where we have fire will probably turn in 
large part to things like cheatgrass and other noxious weeds.
    So we will have an area that's degraded in a little bit 
different fashion than it is today. We will have areas that 
today are sagebrush and grass that will be pinyon and juniper, 
and those areas that are pinyon and juniper will be cheatgrass 
or other noxious weeds.
    And I think that it's not going to be a picture that we're 
going to be very happy about 50 years from now if we don't 
change our management strategy.
    Mr. Gibbons. Very good.
    Dr. Perryman.
    Dr. Perryman. We're going to have a whole lot of more bare 
ground, I think. And bare ground is a place where invasive 
weeds can get. It's a place where erosion occurs. It's where 
water quality goes down. And we're going to have a lot more 
bare ground.
    There may be an intervening period where we continue a 
refuels buildup, but at some point in time there is going to be 
a fire year or sequence of fire years, and we haven't taken 
fire out of this system. We have only kind of pushed it back a 
little bit. It's going to get hotter, and it's going to get 
greater in scale.
    At some point there's going to be a fire event, whether 
it's 1 year or a group of years, and we're going to be left 
with bare ground, and once that happens, you begin to lose 
topsoil, then you have lost your options of what you can and 
can't do. And that's really what it boils down to here I think.
    Mr. Gibbons. Mr. Johnson. Fifty years down the road, bigger 
sheep?
    Mr. Johnson. Skinnier sheep.
    No, I want to take a little bit different twist. Although I 
agree with everything that has been said, the impacts of those 
results are what I probably would like to address.
    There has been in the past 30 years reduction in grazing 
AUM's. They have been cut in half in the last 30 years. The 
results of what has been forecasted here, we have got a lot of 
ranchers who are barely hanging on today that this will put 
under. That industry is going to go away for us.
    From a wildlife standpoint, the effects again will be 
devastating to us, but on the local communities, the outdoor 
recreation, the agriculture dollars, all of this that goes away 
will so strongly impact these small local communities that they 
are going to be fighting for their very existence, in my 
opinion. And that is what I see will be the long-range effect 
of all this.
    Mr. Gibbons. Rose.
    Ms. Strickland. Mr. Gibbons, there are--
    Mr. Gibbons. Make sure you use the mike.
    Ms. Strickland. There are two possible scenarios. On the 
good end of the scenario, we will pull ourselves together and 
our resources together, and we will make significant progress 
toward restoring health and sustaining our natural systems we 
have been talking to you about. Even with our limited 
resources.
    The bad scenario, I think, what we'll see is landscapes 
dominated by cheatgrass and other weeds. We're going to see a 
tremendous loss of our wildlife and our birds. And we're going 
to see the livestock industry collapse, and we're going to see 
a lot poorer communities, if they are still here, and I'd say 
just briefly, Nevada will look like the wasteland that the rest 
of the country thinks that we are. And we know that we're not.
    Mr. Gibbons. And that's true.
    I guess my question, of course, goes to when you talk about 
$10 an acre as a nice start, it is a nice start. And I think 
we're spending now just with the Forest Service about $200 
million just for the planning and other purposes that go on for 
management of our forest alone. When you start talking about 
restoration dollars, management dollars, and you start talking 
in the billions of dollars, of course, then we're asking does 
the taxpayer foot this bill or should we be looking at other 
ways to manage government better so that we are more efficient 
with the dollars we spend.
    To that end we have a process in this State where lands 
that are sold in Las Vegas produce hundreds and hundreds of 
millions of dollars of resources. Should those dollars be spent 
on the operation and management of the public lands rather than 
on the acquisition of more lands that add to the problem of not 
being able to manage the ones we have? What's your opinion on 
that? Yes, Dr. Hiatt.
    Dr. Hiatt. As one who was actually involved in the original 
design of Southern Nevada Public Lands Management Act, the 
design at the time was the thought was we really need to 
purchase some lands which are going to disappear, some 
privately held lands which have very, very high wildlife values 
primarily. These are the unique areas where water is found. 
Kind of a scarce commodity in Nevada. And what we're now faced 
with is a twofold issue, if you will.
    We're seeing monies raised which are larger than we had 
anticipated from the Southern Nevada, from the sale of lands 
there, and we're also looking very probably at one of the old 
truisms and that is that spending always expands faster than 
income. And so there will be no problem getting rid of this 
money, if that is what people are really worried about. People 
are lined up at the door in Clark County figuring out ways to 
spend that.
    One of the original inclusions in the Act was for 
expenditure of those funds outside of Clark County as well as 
within Clark County. And I thought then and I still think that 
that's appropriate.
    And various things may be--various projects may be 
certainly worthy of funding, but when we look at the magnitude 
of the problem over Nevada and to think that we're going to be 
able to generate the amount of funds on a multi-decadal basis 
to fund all the restoration efforts is probably over-
optimistic.
    If I might make another statement. Robin Tausch said 
something that was kind of quietly stated in his normal 
fashion. But he indicated that we're going to have to basically 
bring all of our collective wisdom to bear on ways to design 
projects which will, while implemented on a small scale, have 
effects far beyond that in terms of what they lead to, in terms 
of how we can control fire on a large basis.
    In other words, fire as we have heard is not necessarily 
bad per se. If we have immense fire and it burns very, very 
hot, that is a big problem. But if we can break up fuels such 
that over time we can reduce the fuel loading and have natural 
benign fire again, we will go a long ways toward solving the 
problems that we have.
    The idea that just mechanical thinning will do it I think 
is naive. If you go out to the places where mechanical thinning 
has and is taking place, if you look at places where they have 
had fuel wood cuttings, if you look at where they are working 
right here outside of Ely today, you will see that those areas 
are full of little trees. They are six inches to a foot high. 
And in 20 years we will be back where we are today without 
fire.
    Fire is a great leveling effect, and it basically brings 
everything back down to ground zero, if you will. And grasses 
and sagebrush which grow faster than trees will have an 
advantage in that case. But if all we do is remove the big 
trees and we leave the little trees, we're going to be right 
back where we started before you know it.
    Mr. Gibbons. I was interested in your comments, but I was 
also aware that Dr. Tausch indicated that the use of fire in 
the pinyon-juniper environment was not advisable.
    Dr. Hiatt. I think he can certainly speak for himself. And 
what was indicated was that fire alone in a dense closed canopy 
system is going to be a catastrophic problem, but with some 
tree thinning reduction and then use of fire, we can bring fire 
back into its natural sequence.
    Mr. Gibbons. OK. Well, you have clarified in my mind what 
he said. I thank you for that.
    The State of Nevada, Mr. Robinson, what's the State of 
Nevada's expenditures today in terms of working to create 
healthy forests? What does the State of Nevada put out in terms 
of its total resources?
    Mr. Robinson. I don't have a total figure for you. I know 
that as has been mentioned, the National Fire Plan, Federal 
funds that we bring in are about three-and-a-half million 
dollars a year to help fund a lot of those projects on State 
and private lands throughout the State.
    But returning to your question, I think it's connected, the 
use of some of those funds from the Southern Nevada sales, one 
of the things we'd like to encourage and one of the things the 
Governor has bought into is the BLM, Bob Abbey's idea of the 
Great Basin Initiative and utilization of some funds there 
which the State could buy into and could be part of. We're 
convinced that's the type of thing that needs to be done.
    And it's not a tremendous amount of funds that we'd be 
talking about out of that total percentage that comes out of 
the Southern Nevada act. Probably of the hundreds of millions 
we're talking about there, I think some of the initiatives that 
BLM has come up with are in the 10 to 20 million dollar area. 
We could really start to make a difference outside the Clark 
County area, and we'd like to begin to do that and encourage 
that that be done.
    Mr. Gibbons. Let me ask a different question. We have got 
about 1 minute left before we have to yield this room back up.
    Dr. Perryman, let me interrupt your deep thinking process 
there.
    Dr. Perryman. Not hard.
    Mr. Gibbons. I want to ask a question. When you talk about 
the urban wildland interface or the urban forest interface, a 
lot of people talk about a setback of distance that is usually 
less than a quarter of a mile or somewhere in there. What 
should that interface be in a pinyon-juniper environment?
    Dr. Perryman. That's a good question. If the urban 
interface--this is how I would answer the question. In the 
urban interface, if the urban area is actually located in what 
has been a sagebrush system for the last several hundred if not 
several thousand years, then it should be quite a large setback 
because it should not be a pinyon-juniper system, it should be 
a sagebrush system. And that's what we're really talking about 
here. The encroachment of P-J is down the hill into the 
sagebrush and up the hill into the traditional woodlands. So 
we're running the risk of losing our traditional woodlands and 
the sagebrush system.
    So I would--my position on that would be if the urban 
interface area is sitting in what should be a sagebrush system, 
there shouldn't be very many trees there at all. And so it 
shouldn't--the question should be moot really.
    Mr. Gibbons. Let me go back to Mr. Robinson there because I 
want to talk about fire in the urban wildland or urban forest 
interface. How far back should that interface boundary be in a 
pinyon-juniper environment?
    Mr. Robinson. Congressman, if you are talking about 
defensible space, which I think you are referring to, 
traditionally on flat land we talk about like 30 feet around 
residences. Landscaping that is not necessarily fire--at least 
fire resistant.
    If you are on a slope, if you are on a hill, the margin and 
the distance has to be greater, of course. But all of that, as 
you know, depends on the density of the forest year round, the 
conditions that happen to be there.
    What we have started to do, by we, I mean the Federal and 
State agencies both, and we use the local fire departments, 
too, we will go out to a subdivision before it is built and 
take a look at it and make suggestions on how it should be 
landscaped and those kind of things before the homes are built. 
And that service is being taken advantage of now. Whereas 10 
years ago it wasn't used at all.
    Mr. Gibbons. I wanted to ask Dr. Hiatt, and I have asked so 
many questions, I can't remember whether I have done this or 
not, did I ask you in your opinion, from your testimony, what 
your impression of what a large-scale approach would be to this 
treatment? What are you talking about in terms of when you say 
large scale? Is it 5,000 acres, is it a hundred, is it a 
million?
    Dr. Hiatt. In terms of the overall number of acres that 
need to be dealt with?
    Mr. Gibbons. Right.
    Dr. Hiatt. It is hundreds of thousands to millions. Does 
that mean that that's all in one place one at one time? No, it 
doesn't mean that.
    It's sort of think globally, act locally, type of situation 
in which we would look at individual watersheds, individual 
drainages, to see what worked there and what would enhance 
habitat and reduce fuel loadings. We think about this on a 
landscape scale.
    Mr. Gibbons. If we are losing 50,000 acres a year, we have 
just got to do 50,000 a year.
    Dr. Hiatt. I said hundreds of thousands to millions.
    Mr. Gibbons. That is a year, per year?
    Dr. Hiatt. That is what we need to do I think starting in 
the near future. In other words, if we only did 50,000 acres a 
year, as you have heard from me and other people here, we would 
just sort of be like the drowning man keeping his mouth above 
water but never making it closer to shore. We want to get 
closer to shore.
    Mr. Gibbons. Rose.
    Ms. Strickland. Mr. Gibbons, working on the sage grouse 
teams both at the State level and at the local level, our prime 
objective is to keep the good habitat that we have, don't lose 
it to fires or to other kinds of fragmentation, and we are--we 
also have a large and optimistic goal. It is about a hundred 
thousand acres a year doing restoration projects in the 
sagebrush to restore the values for sage grouse.
    I actually see that we can be combining some of these 
different programs and needs and working together so that we 
can actually--50,000 sounds like a lot, but if you think 50,000 
over the entire State and some of it is being done for urban 
interface, some of it is being done for sage grouse, some of it 
might be done for elk, we may be able to make those kinds of 
goals.
    Mr. Gibbons. It is a big project, big problem. It is going 
to require big outlays of resources for a solution that's going 
to be a long time in the coming, and I hope that we haven't 
started too late.
    As I mentioned earlier, we were recently in Lake Arrowhead, 
California, which is San Bernardino County, and the forest 
there is dead. It is a massive forest and it is dead. Maybe one 
out of ten trees is alive in that forest. It is just standing 
there, and unfortunately, today it's probably on the verge of 
being burned, and all those homes and people's lives are just 
at risk.
    And I see that as an indicator that we have waited too long 
in some areas to take the appropriate steps to do the things 
that we needed to do years ago to prevent the forest from 
dying. And it will take a century if not longer for that forest 
to return, which is the real tragedy that I see.
    And I don't want to see us, the State of Nevada, the people 
who live and love this land, to suffer the same consequence. In 
other words, by being timid and not taking bold aggressive 
steps to do what we need to do or should have done earlier, 
lose a great part of our State the way I see California going 
in that regard.
    Ladies and gentlemen, we have run out of time. I did want 
to mention to the people in the audience who want to have an 
opportunity to submit testimony, you can if you have it written 
today submit it or you can within the next 10 days submit any 
kind of written testimony to the Committee that will be 
included in the remarks of this Committee's hearings as well. 
We would hope that you take the time to write and include those 
remarks for our Committee's effort.
    Mr. Gibbons. But most importantly, I want to thank all of 
you for coming here today. I want to thank our witnesses who 
have traveled far distances and taken time to write up and 
prepare remarks to be able to deliver to this Committee today.
    We will and probably expect written questions to be made 
available to some of the witnesses here today, and if we send 
you written questions to help us better understand your 
testimony or direction of the information that we want to have 
for this Committee, we'd ask that you answer the questions and 
submit them back to us also in a timely fashion so that they 
can be included in the record as well.
    With that, I want to once again thank everyone for their 
participation. I want to thank the audience for staying through 
this, and with that, we will call this hearing closed and see 
you the next time.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]


</pre></body></html>
